    AIR TRAFFIC CONTROL MODERNIZATION:
FAA FACES CHALLENGES IN MANAGING ONGOING
PROJECTS, SUSTAINING EXISTING FACILITIES, AND
       INTRODUCING NEW CAPABILITIES

         Federal Aviation Administration
          Report Number: AV-2008-049
           Date Issued: April 14, 2008
           U.S. Department of
                                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Air Traffic Control Modernization:                                           Date:    April 14, 2008
           FAA Faces Challenges in Managing Ongoing
           Projects, Sustaining Existing Facilities, and
           Introducing New Capabilities
           Federal Aviation Administration
           Report Number AV-2008-049

  From:    Lou E. Dixon                                                                     Reply to
                                                                                            Attn. of:    JA-10
           Assistant Inspector General
            for Aviation and Special Program Audits

    To:    Acting Federal Aviation Administrator

           This report provides the results of our review of the Federal Aviation
           Administration’s (FAA) major acquisitions. At the request of the Chairman and
           Ranking Member of the House Committee on Transportation and Infrastructure,
           we updated our May 2005 status report 1 on FAA’s major acquisitions and
           examined how projects are impacted by plans for the Next Generation Air
           Transportation System (NextGen). Our objectives were to examine (1) overall
           trends affecting FAA’s Facilities and Equipment (F&E) or capital account, (2)
           recent changes in cost and schedule baselines of FAA’s major acquisition
           programs, and (3) the effect of NextGen plans on existing projects.

           Our review examined 18 projects valued at $17.5 billion 2 in capital costs. These
           projects include developing new automated controller tools, acquiring new
           technologies to prevent accidents on runways and taxiways, and modernizing FAA
           facilities that manage large segments of airspace over the Atlantic and Pacific
           oceans. We performed this audit in accordance with generally accepted
           Government Auditing Standards as prescribed by the Comptroller General of the
           United States. Exhibit A details the status of the 18 projects, and exhibit B lists


           1
               OIG Report Number AV-2005-061, “Status of FAA’s Major Acquisitions: Cost Growth and Schedule Delays
               Continue To Stall Air Traffic Modernization,” May 26, 2005. OIG reports and testimonies are available on our
               website: www.oig.dot.gov.
           2
               The $17.5 billion total for the 18 projects reviewed includes baselined, non-baselined, and technical refreshment cost
               estimates presented in FAA’s Capital Investment Plan.


                                                                        i
their cost and schedule variances.               Exhibit C contains our review scope and
methodology.

FAA’s modernization effort and plans for NextGen are central issues in the debate
about how best to finance FAA as the current tax structure expires. While there is
controversy about various financing mechanisms, there is almost universal
agreement by stakeholders that significant change is needed to meet the
anticipated demand for air travel.


BACKGROUND
In the early 1980s, FAA initiated a multibillion-dollar effort to modernize the
National Airspace System (NAS), which involved acquiring a vast network of
radar, navigation, communications, information processing systems, and new air
traffic control facilities. This modernization effort continues today and is now
expected to cost $51.1 billion through fiscal year (FY) 2008.

In response to congressional direction, FAA created the Joint Planning and
Development Office (JPDO) and tasked it with developing NextGen in the
2025 timeframe. NextGen is expected to significantly enhance capacity and boost
productivity by shifting from the current ground-based system to a more aircraft-
centered system that relies on satellites. In February 2007, we reported on the
risks facing NextGen and the range of actions needed to successfully deliver new
capabilities. 3

FAA’s air traffic control (ATC) modernization effort has a long history of cost
growth, schedule delays, and unmet expectations that we have chronicled in
numerous reports. In May 2005, we reported that 11 of the 16 projects we
reviewed would experience a total cost growth of about $5.6 billion. Moreover,
9 of the 16 experienced schedule slips from 2 to 12 years. Problems are traceable
to complex software development, overambitious plans, changing requirements,
and poorly defined cost estimates. It will be important for FAA to avoid these
problems as it moves forward with NextGen.


RESULTS IN BRIEF
FAA is at a crossroads with NAS modernization efforts and will be challenged to
keep ongoing projects on track, maintain aging facilities, and develop and
implement NextGen initiatives. FAA is essentially opening a new chapter in the
history of ATC modernization with its plans for NextGen. The transition to

3
    OIG Report Number AV-2007-031, “Joint Planning and Development Office: Actions Needed To Reduce Risks
    With the Next Generation Air Transportation System,” February 12, 2007.


                                                    ii
NextGen is one of the most complex, high-risk undertakings FAA has ever
attempted.

Overall, we found that FAA has done a better job of managing cost growth and
schedule delays with its major acquisitions since we last reported. This is because
FAA has taken a more incremental approach to investment decisions to modernize
controller displays, radars, and communication equipment. However, some key
projects that will serve as platforms for NextGen are still at risk of cost growth,
schedule slips, or diminishing benefits. We also found that FAA’s metrics for
measuring progress with acquisitions have limitations that decision makers should
be aware of when reviewing FAA’s capital account.

Costs remain uncertain for NextGen, and FAA is still evaluating the best ways to
obtain many NextGen capabilities, such as enhanced automation for boosting
controller productivity and data link communications for controllers and pilots.
FAA is also exploring what can be done in the near term. We note that over
30 existing capital projects will form platforms for NextGen, but FAA has not
made significant changes to them. Our work shows that FAA will need to make
several decisions between now and 2009 to determine how to achieve NextGen’s
capacity-enhancing capabilities.

FAA’s capital account has focused on sustainment but is now being shaped by
NextGen. Since 2005, FAA’s capital account has remained steady at $2.5 billion
annually and has mainly focused on sustaining the existing system. As we have
previously reported, increasing operations costs (mostly salary-driven) have
crowded out capital investments. As the capital account stayed relatively flat,
FAA deferred, cancelled, or postponed decisions on projects. For example, FAA
cancelled a $167 million data-link communications program for controllers and
pilots because of cost concerns, impact on the operations account, and uncertainty
about how quickly airspace users would equip with new avionics. FAA is now
restarting a similar program for NextGen.

During the same period, FAA invested slightly over half of its capital account for
air traffic control equipment. The
                                                Figure 1. FAA’s Capital Account
remaining funds were for facilities,             Percentages, FY 2003-FY 2007
personnel     costs,   and     support      Personnel and
                                               Related
contracts. Figure 1 illustrates FAA’s         Expenses
capital investments from FY 2003                 16%

through FY 2007.                         Mission
                                               Support                    ATC
                                                17%                      Modernization
The overarching issue for the capital                                      52%
                                                 Facilities 15%
account now involves developing and
introducing NextGen capabilities that     Source: FAA
can enhance capacity, boost controller


                                         iii
productivity, and reduce Agency operating costs. FAA plans call for the capital
account to grow to an average of $3 billion per year, representing $15.4 billion for
FY 2008 through 2012. A large portion of the increase is to fund NextGen
projects, slated to cost $4.6 billion for that period.

A near-term challenge for FAA is maintaining its aging air traffic control
facilities. FAA spends about $400 million annually on its facilities, or about
15 percent of its capital budget. Several events, such as the equipment failures in
southern California that delayed hundreds of flights in 2006, have underscored the
importance of maintaining these facilities. As of last year, FAA’s en route
operations reported a $120 million backlog in facility sustainment requirements,
and FAA’s terminal operations reported a $124 million backlog. We are currently
reviewing the overall state of FAA’s facilities and will issue our report later this
year.

While FAA is taking a more incremental approach with its acquisitions,
several major programs are facing significant cost and schedule risks or
diminishing benefits. Overall, we are not seeing the significant cost growth and
schedule slips with major acquisitions that have occurred in the past. When
comparing revised baselines, only 2 of the 18 projects we reviewed experienced
additional cost growth ($53 million, combined) and delays (5 years, combined)
since our last report. However, from inception, 6 of the 18 programs have
experienced cost growth of close to $4.7 billion and schedule delays of 1 to
12 years. 4

One reason for this overall improvement is that FAA’s approach focuses on “re-
baselining” (i.e., making formal cost or schedule adjustments) or approving
segments of major efforts. This involves reducing the number of systems
procured or postponing investment decisions on remaining portions of the project.
As a result, straightforward comparisons of many projects’ original and revised
cost and schedule baselines no longer represent all requirements. For example,
FAA re-baselined the Airport Surveillance Radar (ASR-11) program in 2005 by
breaking it into segments. The current, approved segment shows a slightly lower
cost estimate ($697 million) for 66 systems by 2009 than the original program
estimate of $743 million for 112 systems by 2005. FAA continues to postpone
decisions on the second segment.

While this approach may reduce risk in the near term, it has left several programs
with no clear end-state and less visibility into how much programs will cost. A
case in point is terminal modernization. FAA’s past terminal modernization
4
    Our analysis did not include the same programs reviewed in our previous modernization report, in which we reported
    $5.6 billion in cost growth. Several programs have since been re-baselined, resulting in lower cost estimates. For
    example, we reported in May 2005 that the Next Generation VHF Air/Ground Communication (NEXCOM) program
    cost estimate was $986.4 million; however, its current cost estimate is $324.7 million.


                                                          iv
efforts focused on the Standard Terminal Automation Replacement System
(STARS). In 2004, faced with cost growth of over $2 billion, FAA shifted to a
phased approach and committed STARS to just 50 sites for an estimated cost of
$1.46 billion instead of the original plan to deploy 172 sites for $940 million.
FAA renamed the overall effort the Terminal Automation Modernization-
Replacement initiative (TAMR).

In 2005, FAA approved modernizing five small sites and replacing aging displays
at four large sites at a cost of $57 million. This leaves over 100 sites still in need
of modernization. FAA’s Capital Investment Plan (CIP) 5 now has separate line
items for STARS and TAMR. Although firm requirements have not been
established, over $3.5 billion is planned in the CIP for terminal modernization
efforts.

Past problems with STARS leave FAA in a difficult position to transition to
NextGen. Many NextGen capabilities for more flexible use of high-density
airspace depend on enhanced controller displays and related equipment near
airports. Key cost drivers will be (1) NextGen requirements, (2) the extent to
which FAA consolidates its terminal facilities to keep pace with information
sharing technology (this could be controversial as the size and location of FAA
facilities directly affect system and workforce requirements), and (3) the need to
replace or sustain legacy systems that have not been modernized.

Several projects, such as the FAA Telecommunications Infrastructure (FTI) and
the Airport Surface Detection Equipment-Model X (ASDE-X) programs, have
undergone significant changes but are still at risk of cost increases, schedule slips,
or reduced benefits.

    • FTI (replaces telecommunications networks with a single network to reduce
      operating costs): In April 2006, we reported 6 that FTI was unlikely to meet its
      December 2007 completion date; FAA has since extended the completion date
      by 1 year and increased acquisition costs by $8.6 million. To its credit, FAA
      has delivered 18,294 of 22,545 services as of January 31, 2008; however,
      expected cost savings have eroded. In 2005, the program office reported a
      reduced benefit estimate, from $820 million to $672 million. In August 2006,
      when FAA re-baselined FTI, we estimated cost savings decreased from
      $672 million to $434 million, when including previous investments in FTI.
      We will issue a report on FTI later this year that examines overall program
      costs and schedule risks and FAA’s actions to address unscheduled outages
      during the FTI transition.
5
    The FAA’s CIP is a 5-year plan that describes the NAS modernization projects planned for the next 5 years within
    anticipated levels of funding.
6
    OIG Report Number AV-2006-047, “FAA Telecommunications Infrastructure Program: FAA Needs To Take Steps
    To Improve Management Controls and Reduce Schedule Risks,” April 27, 2006.


                                                         v
    • ASDE-X (helps controllers track aircraft and vehicle movement at airports):
      FAA intended ASDE-X as a low-cost alternative to its legacy radar system for
      small- to medium-sized airports. In 2005, FAA increased ASDE-X costs by
      $44.6 million and extended the 2007 completion date by 4 years, refocusing
      the program on upgrading legacy radar at larger airports. Since the re-baseline,
      however, FAA has increased costs by $94 million for some ASDE-X activities
      and has only commissioned 12 of the 35 sites. Further, FAA has not resolved
      operational performance issues with key safety capabilities. In October 2007,
      we recommended that FAA develop realistic cost estimates for implementation
      and resolve operational performance issues before deploying ASDE-X safety
      capabilities at remaining airports.7

FAA’s cost and schedule metrics are useful tools, but do not fully assess
progress with major acquisitions. FAA reports in the FY 2007 Flight Plan and
its most recent Performance and Accountability Report that 100 percent of its
critical acquisitions were within 10 percent of budget estimates and 97 percent
were on schedule for 2006. In FY 2006, FAA tracked about 29 projects, such as
the acquisition of new radars. However, FAA’s cost and schedule metrics have
limitations that decision makers must understand to properly assess the overall
status of FAA’s acquisition portfolio.

    • First, these metrics are “snapshots” in time and do not address changes in
      requirements, reductions in procured units, or shortfalls in performance. As
      noted earlier, there have been significant changes in requirements in terms of
      systems to be procured and deployment plans with respect to the ASR-11 and
      STARS/TAMR efforts.
    • Second, FAA’s budget metrics compare cost estimates taken during the current
      fiscal year using updated cost figures, not estimates from the original baseline.
      This is why the Wide Area Augmentation System (a satellite-based navigation
      system) is considered “on budget” even though costs have grown from
      $892 million to over $3 billion since 1998.
    • Third, several schedule metrics focus on interim steps or task completion
      instead of whether systems meet operational performance goals. For example,
      ASDE-X metrics focused on the delivery of two systems instead of whether
      the systems entered service or operated as planned. There are no written
      standards for selecting or reporting program milestones, and FAA needs to
      develop criteria for program offices to improve milestone reporting.

Re-baselining a project is important to maintain reliable cost and schedule
parameters and is consistent with Office of Management and Budget (OMB)

7
    OIG Report Number AV-2008-004, “FAA Needs To Improve ASDE-X Management Controls To Address Cost
    Growth, Schedule Delays, and Safety Risks,” October 31, 2007.


                                                 vi
guidance.     However, comparisons of revised baselines—absent additional
information—do not accurately depict a program’s true cost parameters. To
sufficiently measure progress with NextGen initiatives, FAA will need to explore
a wider range of metrics that focus on promised capabilities and benefits from
bundled procedures and multiple systems. FAA should focus on metrics
associated with the goals of enhancing capacity, boosting productivity, and
reducing Agency operating costs.

Much work remains to determine NextGen’s impact on existing projects.
FAA is currently exploring ways to accelerate elements of NextGen. FAA faces
complex integration issues (linking new and legacy systems) and must manage
interdependency among diverse projects.        The pace of introducing new
automation, more flexible airspace, and data-link communications will be
governed by the pace of existing projects.

According to FAA, about 30 existing capital programs will serve as platforms for
NextGen, some of which were designed and approved before the JPDO and
NextGen concept of operations was established. For example, core NextGen
initiatives, such as data link and flexible airspace, rely on software enhancements
to the $2.1 billion En Route Automation Modernization program, or ERAM (new
hardware and software for facilities that manage high-altitude traffic). However,
since ERAM is planned for completion between 2009 and 2012, many NextGen
capabilities are not planned for introduction until the 2012 to 2015 timeframe.
ERAM software requirements related to NextGen are still uncertain, but costs are
expected to be in the billions of dollars.

Over the next 2 years, over 23 critical decisions must be made about ongoing
programs. These decisions affect major lines of the modernization effort with
respect to automation (modernizing terminal and en route capabilities),
communications (moving forward with data-link programs), navigation (deciding
whether to retain or discontinue certain ground-based systems), and surveillance
(using satellite-based and radar information with existing ATC systems).

These decisions and many others will depend heavily on the development of a
comprehensive Enterprise Architecture (a technical roadmap) that lays out the
vision of how the system will work and what changes will be required. The
Enterprise Architecture must establish a transition path that identifies the role and
evolution of current systems and how they will transition to NextGen.

FAA has made progress in developing the NextGen Enterprise Architecture, but
planning documents lack details on requirements, particularly for automation, that
could be used to develop reliable cost estimates. FAA must revise these
documents to prioritize NextGen operational improvements and systems and



                                         vii
ensure that these priorities are reflected in NextGen planning documents and
budget requests.

Along with refining the Enterprise Architecture, FAA must chart a clear transition
course from the current NAS architecture to the vastly different NextGen
environment. Our work shows that FAA needs to conduct a gap analysis between
the current system and the NextGen architecture planned for the 2025 timeframe.
This will help establish budget priorities, better define requirements, and refine
transition plans. In addition, FAA needs to develop an interim architecture or
“way-point” that is manageable and executable for what is expected of the NAS
by 2015. Until these steps are taken, it will not be possible to determine technical
requirements that translate into reliable cost and schedule estimates for existing or
future acquisitions.


SUMMARY OF RECOMMENDATIONS
FAA faces challenges with completing existing projects, maintaining existing
facilities, and developing NextGen without cost growth and schedule slips. In
February 2007, we recommended that FAA review ongoing modernization
projects to determine what cost and schedule adjustments would be required to
better manage NextGen initiatives. We also recommended that FAA determine
what skill sets would be required to manage and execute NextGen initiatives.
FAA concurred with our recommendations and began actions to address our
concerns.

At this time, we are recommending that FAA develop and track written criteria for
selecting project milestones that are used to track Agency progress with major
acquisitions; develop metrics for measuring NextGen progress that focus on
enhancing capacity, boosting productivity, or reducing Agency operating costs;
complete a gap analysis of the current NAS and planned NextGen enterprise
architectures; and establish an interim architecture to establish priorities that will
allow FAA to accurately determine costs and NextGen requirements. Our
complete recommendations are listed on page 20.


SUMMARY OF AGENCY COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE
On February 1, 2008, we provided FAA with our draft report. We held an exit
conference with FAA officials from the Air Traffic Organization and JPDO on
February 21 to discuss our findings and recommendations. The officials generally
concurred with all of our recommendations and noted that FAA has initiated
efforts to accelerate elements of NextGen and develop new metrics to assess


                                         viii
progress with those elements. They also offered technical comments with respect
to the Automatic Dependent Surveillance-Broadcast (ADS-B), ASDE-X, and FTI
programs, and we have adjusted our report as appropriate. FAA’s comments and
our response are fully discussed on page 21.


ACTIONS REQUIRED
In accordance with DOT Order 8000.1C, we request that FAA formally respond to
our recommendations within 30 calendar days. We are also requesting that FAA
provide target completion dates in its response to each recommendation. FAA
may propose alternative actions that it believes would resolve the issues presented
in this report.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please contact me or
Matthew E. Hampton, Deputy Assistant Inspector General for Aviation and
Special Program Audits, at (202) 366-0500.


                                        #


cc:   FAA Chief of Staff
      Senior Vice President, ATO Finance, AJF-0
      Anthony Williams, ABU-100
      Martin Gertel, M-1




                                        ix
                               TABLE OF CONTENTS



FINDINGS .............................................................................................. 1
    FAA’s Capital Account Has Focused on Sustainment
    but Is Now Being Shaped by Efforts To Transition to
    NextGen ............................................................................................ 1
    FAA Has Done a Better Job of Managing Acquisitions,
    but Several Programs Face Cost and Schedule Risks or
    Diminishing Benefits.......................................................................... 6
    While FAA May Meet Cost and Schedule Goals, Its
    Metrics Do Not Fully Assess Progress With Major
    Acquisitions ..................................................................................... 14
    Much Work Remains for FAA To Determine NextGen’s
    Impact on Existing Projects ............................................................. 15

RECOMMENDATIONS........................................................................ 20

AGENCY COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE....................................................................... 21

EXHIBIT A. STATUS OF FAA’S MAJOR ACQUISITIONS
(AS OF SEPTEMBER 2007)................................................................ 22

EXHIBIT B. COST AND SCHEDULE VARIANCES FOR
EXISTING PROGRAMS ...................................................................... 38

EXHIBIT C. OBJECTIVES, SCOPE, AND
METHODOLOGY................................................................................. 39

EXHIBIT D. MAJOR CONTRIBUTORS TO THIS
REPORT .............................................................................................. 41
                                                                                     1




FINDINGS

FAA’s Capital Account Has Focused on Sustainment but Is Now
Being Shaped by Efforts To Transition to NextGen
FAA’s capital account has remained steady at $2.5 billion annually since 2005 and
has mainly focused on sustaining the existing system. Also in recent years, FAA’s
operations budget has risen steadily, crowding out funds for major acquisitions.
Looking forward, the capital budget for FY 2008 through 2012 is projected to be
$15.4 billion, or an average of about $3.1 billion per year; about $4.6 billion of
this amount is projected for NextGen efforts. FAA will face challenges as it must
balance funding needs for NextGen initiatives with maintenance requirements for
aging facilities.


Recent Capital Trends Focus on NAS Sustainment
From FY 2005 to FY 2007, FAA’s capital account has stayed steady at about
$2.5 billion, significantly below the $3.0 billion level authorized in the FY 2004
Vision 100 Century of Aviation Reauthorization Act. 8 During FY 2003 and FY
2004, the capital account averaged about $2.9 billion (see figure 2).

     Figure 2. Agency F&E Enacted Funding, FY 2003 to FY 2007
                                      (Totals in Millions)
    $3,500.00




    $3,000.00       $2,959.38
                                  $2,892.79


                                                             $2,555.20   $2,575.58
                                                $2,524.82
    $2,500.00




    $2,000.00




    $1,500.00




    $1,000.00
                        FY03         FY04          FY05         FY06        FY07
     Source: FAA




Over the last several years, increasing operating costs—mostly salary-driven—
have crowded out funds for the capital account. From FY 2003 to FY 2007,
funding for FAA’s operations account rose almost 20 percent, while funding for
8
    Pub. L. No. 108-176 (2003).


Findings
                                                                                                                                                   2


the capital account trended downward. Figure 3 illustrates funding levels for
FAA’s capital, operations, and airport improvement accounts.

                                 Figure 3. Agency F&E, Operations, and Airport Improvement
                                             Actual Funding, FY 2003 to FY 2007
                                                                                     (Totals in Millions)

                                                                                                                              8,374
                                                                                                              8,104
                                 8,000
                                                                                             7,707
                                                                         7,479

                                                 7,039
 FAABudget Amounts(InMillions)




                                 6,000
                                                                                                                                          F&E
                                                                                                                                          Operations
                                                                                                                                          AIP




                                 4,000
                                                                             3,649                3,702                           3,671
                                                     3,378
                                                                                                                  3,071
                                          2,942                  2,863
                                                                                         2,525            2,555           2,518


                                 2,000
                                                FY 2003                 FY 2004             FY 2005          FY 2006         FY 2007
                                  Source: FAA                                              Fiscal Year




During the same period, FAA invested slightly over 50 percent of its capital
account in modernizing air traffic control equipment; the remainder was used for
personnel, mission support, and facilities (see figure 4).

Figure 4. Breakout of FAA’s Capital Account, FY 2003 to FY 2007
                                                                                 Personnel and Related
                                                                                 Expenses 16%
                                                                                                          ATC Modernization 52%
                                                   Mission Support 17%



                                                                           Facilities 15%

                                                          Source: FAA


Within the category of ATC modernization, investments can be grouped into five
major lines of effort: automation, communications, navigation and landing,
surveillance, and weather. Between FY 2003 and FY 2007, 51 percent of FAA’s
modernization funds went toward automation programs for controller displays and
related components for terminal, en route, and oceanic systems. We note that
FAA has spent about 40 to 50 percent of its modernization funds specifically on
automation since the late 1990s. Figure 5 illustrates FAA investments among the
major lines of effort.




Findings
                                                                                                        3


     Figure 5. Breakout of ATC Modernization Within FAA’s Capital
                     Budget, FY 2003 to FY 2007
                                                Weather 4%
                          Surveillance 17%


                        Navigation &
                        Landing 16%                                       Automation 51%



                                    Communications 12%
                  Source: FAA


Several major programs are slated to reduce their capital expenditures between
FY 2008 and FY 2012, including ASR-11, ASDE-X, ERAM, and FTI. While this
could lead to lower annual capital requirements, program adjustments, in terms of
requirements and costs needed to accommodate NextGen efforts, are still
unknown.


FAA Has Deferred, Cancelled, and Postponed Several Acquisition
Programs
Another trend that has affected the capital account during FY 2003 through
FY 2007 is FAA’s decision to defer or cancel several efforts. These include the
following:

     • Local Area Augmentation System (LAAS)—a satellite-based precision landing
       and approach system. In 2002, we reported on the risks facing LAAS and the
       need to reset expectations. 9 FAA placed the program into “research and
       development status” in FY 2004 to meet integrity requirements for Category I
       precision approaches 10 and stopped requesting funds for the program
       beginning in FY 2006. In 2008 or 2009, FAA will decide whether it will
       pursue LAAS.
     • Controller-Pilot Data Link Communications (CPDLC)—a way for controllers
       and pilots to share information that is analogous to wireless e-mail. FAA
       began using CPDLC at the Miami Center in October 2002 and planned to
       deploy it to other facilities that manage high-altitude traffic for $167 million.
       In 2003, FAA cancelled the program due to concerns over user equipage,
       invalid cost estimates, and impact on the operations account. We reported on




9
     OIG Report Number AV-2003-006, “FAA Needs To Reset Expectations for LAAS Because Considerable Work Is
     Required Before It Can Be Deployed for Operational Use,” December 16, 2002.
10
     CAT I precision approach has a 200-foot ceiling/decision height and visibility of a half-mile.


Findings
                                                                                                                  4


       these issues in 2004. 11 We note that FAA is proposing a new data
       communication effort related to NextGen activities.

During the same period, FAA postponed decisions on future elements of several
other programs, including terminal modernization, digital radars, and efforts to
revamp voice and data communications in the NAS.


FAA’s Capital Account Will Be Increasingly Shaped by Efforts To
Transition to NextGen
FAA is planning for a significant increase in its capital budget to develop NextGen
initiatives. FAA estimates show that the Agency will require $15.4 billion for
capital projects from FY 2008 to FY 2012. This includes $4.6 billion for NextGen
initiatives ($4.3 billion from the capital account and $300 million from the
Research, Engineering, and Development [RE&D] account). Figure 6 illustrates
FAA funding projections developed last year.

                       Figure 6. FAA Capital Funding Projections for
                             FY 2008 to FY 2012 (Totals in Millions)

            $4,000.0


                               NextGen Funding                                      $3,506.3
            $3,500.0                                                    $3,353.0
                               Remaining F&E
                                                            $3,114.7
                                               $2,958.8                                        NextGen Funding
            $3,000.0
                                                                                               includes ADS-B,
                                                                                    $1,294.6
                                                                                               SWIM, and future
                                                                        $1,256.4
                          $2,461.6             $652.8       $956.5                             projects supporting
            $2,500.0                                                                           NextGen.
                          $174.4
                                                                                               Remaining F&E
                                                                                               includes funding for
            $2,000.0
                                                                                               existing projects,
                                                                                               facilities, and
                                                                                               support service
            $1,500.0                                                                           contracts.

                                                                                               Total NextGen
                          $2,287.2             $2,306.0                             $2,211.7
                                                            $2,158.2    $2,096.6               funding for FY 2008
            $1,000.0
                                                                                               to FY 2012 from the
                                                                                               capital account is
                                                                                               $4.3 billion.
             $500.0



               $0.0
                          FY 2008              FY 2009      FY 2010     FY 2011     FY 2012

           Source: FAA                                    Fiscal Year




In FY 2008, FAA requested funds in its capital budget for two prominent NextGen
initiatives: ADS-B—a surveillance program—and System-Wide Information
Management (SWIM)—an information architecture.                FAA will spend
$107.9 million on these programs in FY 2008. In addition, FAA requested funds
for new NextGen initiatives, such as NextGen Data Communication
11
     OIG Report Number AV-2004-101, “Observations on FAA’s Controller-Pilot Data Link Communications Program,”
     September 30, 2004.


Findings
                                                                                   5


($7.4 million), NextGen Network Enabled Weather ($7 million), a new NAS
Voice Switch ($3 million), and demonstration and infrastructure projects
($50 million).

The majority of funds for NextGen are for developmental efforts. In fact,
$3.0 billion of the total $4.6 billion in projected NextGen funding will be
dedicated to developmental efforts funded through the Engineering, Development,
Test, and Evaluation portion of FAA’s capital account starting in FY 2009. These
efforts include providing the automation and communication links to allow
trajectory-based operations, modifying procedures to improve airspace flexibility
at high-density airports, and updating weather technology to sense and mitigate the
impact of weather.


FAA Must Attend to Aging Facilities While Developing NextGen
A near-term challenge for FAA is maintaining its aging air traffic control facilities
while concurrently focusing on NextGen efforts. Several events, such as the
equipment failures in southern California that delayed hundreds of flights in 2006,
have underscored the importance of maintaining existing facilities and related
ground infrastructure. FAA has stated that its facilities are relatively old, on
average, and have mechanical and electrical systems that are beyond their life
expectancies or do not meet current operational requirements. FAA spent about
$419 million in FY 2007 on facilities, or about 17 percent of its capital budget.
Table 1 illustrates the average age of FAA’s facilities as of FY 2007.

                 Table 1. Average Age of FAA Facilities
                           Type of Facilities          Average Age
              Air Traffic Control Towers                 29 years
              Terminal Radar Approach Control
                                                         26 years
              Facilities
              En Route Control Centers                   43 years
             Source: FAA

As of last year, FAA’s air route traffic control centers have identified a
$120 million backlog in facility sustainment requirements and, similarly, FAA’s
terminal operations have identified a $124 million backlog. We are currently
reviewing the overall state of FAA’s facilities and will issue a report later this
year.




Findings
                                                                                                6


FAA Has Done a Better Job of Managing Acquisitions, but Several
Programs Face Cost and Schedule Risks or Diminishing Benefits
Overall, we are not seeing the significant cost growth and schedule slips with FAA
major acquisitions that occurred in the past. This is because FAA has taken a
more incremental approach to managing major acquisitions. When comparing
revised baselines, only 2 of the 18 projects we reviewed have experienced
additional cost growth ($53 million) and delays (5 years) since our last report in
2005. However, from program inception, six programs have experienced cost
growth of close to $4.7 billion and schedule delays of 1 to 12 years (see exhibit B).
While FAA’s incremental approach may reduce risk and make programs more
manageable in the near term, it has left several programs with no clear end-state
and less visibility into how much they will cost.


FAA’s Incremental Approach to Major Acquisitions Involves Re-Baselining
Several Efforts
One reason for the overall improvement in curbing cost growth is that FAA’s
approach focuses on approving segments of major acquisitions that can be
completed within 5 years and deferring decisions on complicated portions of the
acquisition. This is FAA’s effort to correct past mistakes and maintain better
control of acquisition efforts.

FAA has “re-baselined” (i.e., made formal cost or schedule adjustments) five
major efforts since our 2005 report, including projects to prevent runway accidents
and revamp Agency communications and ground-based radars. We found that two
projects experienced cost and schedule adjustments without program
segmentation, and their progress remains comparable to the original baseline
(see table 2).

  Table 2. FAA Program Re-Baselines With Some Cost Growth
                     and Schedule Delays
      System                               Status and Key Issues
     ASDE-X      In September 2005, FAA increased ASDE-X costs from $505.2 million to
                 $549.8 million and extended the completion date from 2007 to 2011.


       FTI       In August 2006, FAA increased its acquisition costs to develop the FTI
                 network by $8.6 million (from $310.2 million to $318.8 million) and extended
                 the completion date from December 2007 to December 2008.

   Source: FAA’s ASDE-X and FTI baseline documents

The three remaining re-baselining decisions involved an incremental approach that
resulted in FAA reducing the number of systems procured or postponing


Findings
                                                                                                       7


investment decisions. As a result, straightforward comparisons of original and
revised cost and schedule baselines are no longer meaningful for these projects
and do not fully represent all program requirements (see table 3).

      Table 3. FAA Program Re-Baselines With Modifications
                         and Deferrals
     System                                   Status and Key Issues
  STARS/TAMR      The current STARS program is a segment of the ongoing terminal modernization
                  effort and is not analogous to the original STARS program. In June 2005, FAA
                  estimated that the cost of STARS would be $2.7 billion and that it would be
                  deployed at 50 sites by FY 2008 (later adjusted to 47 sites). This is very
                  different from FAA’s original estimate of 172 sites for $940.2 million by 2005.
                  The FAA also decided on deploying TAMR (Phase 2) at nine sites and scheduled
                  completion by mid-2008. FAA continues to defer decisions on additional
                  phases, affecting more than 100 sites.
  ASR-11          The current ASR-11 program is a segment of the original program. FAA
                  originally estimated that the ASR-11 radar program would cost $743 million and
                  be installed at 112 sites by 2005. Subsequent decisions increased program costs
                  to $1.0 billion and extended the deployment schedule to 2013. In September
                  2005, FAA broke the program into segments. The currently approved segment
                  (involving 66 systems) is estimated to cost $697 million and scheduled for
                  completion by 2009. FAA continues to postpone decisions for the second
                  segment.
  NEXCOM          The NEXCOM program has a long and complicated history. For example, in
                  May 1998, FAA proposed that NEXCOM would involve three segments—the
                  first segment (for multi-mode digital radios and interface units) was approved for
                  $407 million with other segments to follow. In May 2000, FAA divided segment
                  1 into a multi-mode digital radio segment (1a) and a ground infrastructure
                  segment for digital communications (1b). FAA approved the radio segment for
                  $318.4 million but did not approve the ground infrastructure segment, which was
                  slated to cost $667.0 million. In December 2005, FAA increased the cost of
                  NEXCOM segment 1a from $318.4 million to $324.7 million and delayed final
                  implementation from FY 2010 to FY 2013. FAA has since deferred decisions on
                  all remaining segments.
Source: FAA

FAA’s Incremental Approach May Reduce Risk but Provides Less Visibility
Into Programs’ True Costs and Completion Dates
While FAA’s incremental approach may help reduce risk and the potential for cost
growth in the near term, it has left several programs with no clear end-state. As a
result, it is unclear how much these programs will ultimately cost or how long they
will take to complete.

Terminal Modernization and Replacement of Aging Controller Displays: In
2004, faced with cost growth of over $2 billion for STARS, FAA rethought its
terminal modernization approach and shifted to a phased process, committing
STARS to just 50 sites at an estimated cost of $1.46 billion instead of the original



Findings
                                                                                                       8


plan to deploy 172 sites for $940 million. FAA renamed this effort the Terminal
Automation Modernization-Replacement initiative.

In 2005, FAA approved modernizing displays through the TAMR program
(referred to as TAMR Phase 2) by replacing legacy equipment at five additional
small sites and installing modernized equipment to replace aging displays at four
large, complex facilities at a cost of $57 million by 2008. However, this leaves
over 100 sites still in need of modernization. Although FAA has not decided how
it will modernize these sites, its FY 2008 budget submission indicates that this
effort could cost over $1 billion. As outlined in the Agency’s CIP, over
$3.5 billion is planned for terminal modernization efforts.

There is no defined end-state for terminal modernization, and past problems with
developing and deploying STARS/TAMR leave FAA in a difficult position to
begin transitioning to NextGen capabilities. Future modernization costs will be
shaped by (1) NextGen requirements, (2) the extent of FAA’s terminal facilities
consolidation, and (3) the need to replace or sustain existing (or legacy) systems
that have not yet been modernized.


FAA Faces Challenges With Key NextGen Programs That Have Recently
Received Initial Cost and Schedule Baselines
Of the 18 programs we reviewed, 3 have established their initial baselines since
we last reported on ATC modernization in May 2005. FAA is approving these
programs, which are essential to the NextGen transition, using an incremental
approach. Current cost estimates in the Agency’s CIP projections bear limited
relationship to the programs’ approved cost baselines; therefore, it is unknown at
this point how much these three programs will ultimately cost.

ADS-B: This program provides a satellite-based technology that allows aircraft to
broadcast their position to ground systems, air traffic control, and other aircraft. In
August 2007, FAA awarded a service-based contract for the ADS-B ground
infrastructure worth $1.8 billion if all options are exercised. As we have stated in
recent testimony,12 FAA is pursuing a phased (or segmented) approach to
implementing ADS-B. FAA estimates that ADS-B will cost about $1.6 billion in
capital costs alone for initial segments of its implementation through 2014, which
include the completion of a nationwide ground system for receiving and
broadcasting ADS-B signals.

     • In segment 1 (planned to occur between now and 2011), FAA plans to
       complete implementation in Alaska, provide services in the Gulf of Mexico,

12
     OIG Testimony Number CC-2007-100, “Challenges Facing the Implementation of FAA’s Automatic Dependent
     Surveillance-Broadcast Program,” October 17, 2007.


Findings
                                                                                   9


   initiate broadcast service on the east coast, and continue efforts to develop air-
   to-air applications with United Parcel Service at Louisville International
   Airport.
 • In segment 2 (planned to occur between 2009 and 2014), FAA plans to issue a
   final rule for mandating ADS-B usage by 2020, complete the ground
   infrastructure, and integrate ADS-B with existing FAA automation systems.

FAA must address several challenges linked to ADS-B usage. These include: (1)
gaining stakeholder acceptance and aircraft equipage, (2) addressing broadcast
frequency congestion concerns, (3) integrating with existing systems, (4)
implementing procedures for separating aircraft, and (5) assessing potential
security vulnerabilities in managing air traffic.

Air Traffic Management (ATM): This program provides FAA with hardware
and software tools to manage air traffic, expand system capacity, and reduce the
impact of bad weather system-wide. FAA baselined ATM for $454 million in
August 2005 and scheduled its deployment for FY 2011. ATM is baselined for
two initial segments with plans for additional segments.

Although the ATM effort has not experienced cost increases or schedule delays,
we are concerned about risks and what will ultimately be delivered since FAA and
the contractor significantly underestimated the size and complexity of software
development. Since then, FAA has modified the contract and adjusted the scope
of the work. Not withstanding FAA’s efforts to adjust the contract, we note that
underestimating software development has led to significant problems with other
modernization projects.

The challenges FAA faces with ATM include: (1) developing complex software
and integrating ATM with other NAS systems and (2) determining cost and
schedule decisions on the additional segments, which are unknown at this time.

SWIM: This program provides FAA with a web-based architecture that allows
information sharing among airspace users. FAA expects to spend $22.9 million on
this program in FY 2008. FAA baselined the first 2 years of segment 1 (planned
to occur between FY 2009 and 2010) for $96.6 million. The latest CIP cost
estimate for initial SWIM segments is $285 million.

Current challenges include the work to determine requirements and interfaces with
other FAA systems, including ERAM and ATM. SWIM will require integration
with other Federal agencies’ operations to realize NextGen benefits and develop a
robust cyber security strategy and design. While FAA has begun initial efforts, it
still needs to establish the architecture, strategy, and design. Additional SWIM
segments have yet to be determined, and the cost to fully implement SWIM is
unknown.

Findings
                                                                                  10


Current FAA Acquisition Programs That Have Undergone Baseline
Changes Are Still at Risk of Not Attaining Expected Benefits
Our analysis shows that several programs require significant attention and
oversight because of their size, diminishing benefits, potential costs and schedule
problems, or importance to the NextGen transition. These projects have
undergone baseline changes but are still at risk of not attaining expected benefits.

FTI: FTI is intended to replace seven FAA-owned and -leased
telecommunications networks with a single network to provide FAA with services
through 2017 and reduce operating costs. In FY 2007, Congress appropriated
$28 million in F&E funds to FAA for this program. In FY 2008, FAA expects to
spend $8.5 million for FTI efforts. Unlike most acquisitions, however, the vast
majority of FTI is funded out of the operations account as opposed to the F&E
account.

For FY 2008, FAA estimates it will need $210 million to support FTI operations
and another $91 million to extend legacy network operations while continuing the
FTI transition. The costliest legacy network FTI will replace is the Leased
Interfacility National Airspace System Communications System (LINCS), with
over $600 million spent for operations from 2002 to 2007. In April 2007, FAA
completed negotiations to extend LINCS until April 2008 for a $92 million ceiling
price, with three 6-month options. FTI program officials told us they do not intend
to extend the contract for LINCS legacy network beyond April 2008. This will
help control telecommunication costs.

In April 2006, we reported that FTI was unlikely to meet its December 2007
transition completion date and recommended that FAA improve FTI management
controls and develop a realistic master schedule. FAA agreed and tasked the
MITRE Corporation with conducting an independent assessment of the FTI master
schedule. The assessment identified several risks associated with FAA meeting its
transition deadline. Consequently, in August 2006, FAA’s Joint Resource Council
approved a second re-baseline of FTI’s cost and schedule goals, which extended
the completion date to December 2008 and increased the overall cost by over
$100 million (from $3.3 billion to $3.4 billion). FAA also reduced the total
number of NAS services to be transitioned to FTI from 25,294 to 20,033.

Since we last reported, FAA has made significant progress with the FTI transition
and has delivered 18,294 services (as of January 31, 2008). However, it is
important to note that shifting requirements, eroding cost benefits, and risks to air
traffic operations during the transition have impacted the FTI program.

We note that FAA will not replace all networks as originally planned. FAA has
decided not to replace digital equipment that supports long-range radars or


Findings
                                                                                  11


switching equipment that supports flight data for high-altitude communications, as
originally envisioned by the FTI program office. As a result, FAA will have to
maintain this existing equipment much longer than expected. The cost of doing so
and the impact on potential FTI benefits remain uncertain. Additionally, even
though the last baseline significantly reduced the number of services planned for
transition, this number has since climbed to 22,545. FAA attributes the increase to
“emerging requirements.” 13 Further, the master schedule does not yet include
requirements for moving forward with NextGen efforts. We recognize that these
requirements will have to be addressed through adjustments to the FTI program or
another effort.

FAA’s main goal for FTI was to reduce Agency operating costs. Yet, we found
that costs for FTI remain uncertain since FAA still has not validated cost and
benefit estimates as agreed after our 2006 report. Although FAA reduced the
number of services planned, the overall program cost estimate grew by over
$100 million through 2017. As costs escalate, cost savings have eroded. In 2006,
when FAA re-baselined FTI, we estimated that cost savings decreased from
$672 million to $434 million, when including sunk costs (i.e., previous
investments in FTI). Further, FAA did not achieve any FTI cost savings for
FY 2007. Until FAA independently validates FTI cost and benefit information,
the cost effectiveness of the investment in FTI will remain questionable.

Finally, because of recurring outages and customer service problems, many FTI
services are not meeting availability requirements—9 percent of accepted FTI
services in December 2007, as reported by the FTI program office. The contractor
also reported that many of these were not being restored to service within
contractual timeframes after outages.

Unscheduled outages of both primary and back-up services have led to flight
delays. For example, in Chicago on May 23, 2007, improperly configured FTI
equipment caused the loss of all radar service, forcing air traffic controllers to
implement a local ground stop and triggering 72 flight delays. We will be
reporting on the FTI program again later this year.

ASDE-X: ASDE-X is FAA’s latest effort designed to help controllers identify
aircraft and vehicle positions on the airport surface, with the ultimate goal of
reducing the risks of accidents on runways. It is planned to improve airport safety
by operating in all-weather and low-visibility conditions (e.g., fog, rain, and snow)
when controllers cannot see surface movement on ramps, runways, and taxiways.
In FY 2007, Congress appropriated $70.6 million to FAA for the ASDE-X
program. In FY 2008, FAA expects to spend $40.6 million for ASDE-X efforts.


13
     These are requirements for new services, such as FS-21.


Findings
                                                                                12


ASDE-X was initially designed to provide FAA with a low-cost alternative to its
ASDE-3 radar systems for small- to medium-sized airports, but it has evolved into
a different program. In September 2005, FAA made a major change to the scope
of the program, increasing ASDE-X costs from $505.2 million to $549.8 million
and extending the completion date from 2007 to 2011. FAA now plans to upgrade
ASDE-3 systems with ASDE-X capabilities at 25 large airports and install the
system at 10 other airports that have no existing surface surveillance technology.
FAA concluded this would yield the greatest return on its investment and
maximize safety benefits by deploying ASDE-X capabilities to airports with larger
traffic counts or more complex operations.

We are concerned about further cost increases, schedule delays, and operational
performance problems with this important program.

 • Since the 2005 re-baseline, FAA has increased the cost to acquire and install
   some ASDE-X activities by $94 million. To stay within the revised baseline,
   FAA offset this cost by decreasing planned expenditures for seven other
   program activities, such as construction for later deployment sites.
 • We are also concerned that the ASDE-X schedule is not realistic. When we
   reported in October 2007, FAA had commissioned 11 of the 35 ASDE-X sites;
   however, only 6 of the 11 had all the planned capabilities commissioned for
   operational use. We note that in April 2008, FAA commissioned the 12th
   ASDE-X system for operational use. FAA officials told us that all ASDE-X
   systems have been purchased with spares and test equipment to support each
   site and that site prep has begun. They also noted that each airport presents
   unique challenges that must be addressed. We maintain that FAA should not
   declare ASDE-X as commissioned for operational use until all planned
   capabilities are fully implemented.
 • FAA needs to resolve operational performance issues associated with key
   ASDE-X safety capabilities. For example, while FAA has commissioned the
   first ASDE-X system that can alert controllers of potential collisions on
   intersecting runways or converging taxiways, under certain circumstances, the
   system does not generate timely alerts for controllers to take appropriate
   action. Additionally, ASDE-X is susceptible to dropping targets during heavy
   precipitation. FAA has made progress in addressing these problems. FAA will
   need to fully test ASDE-X safety capabilities to ensure the system can meet the
   unique needs of each airport scheduled to receive ASDE-X.

Because of these issues, the program is at risk of not meeting its goals to deliver
all 35 ASDE-X systems by 2011. In October 2007, we recommended that FAA
develop realistic cost estimates for all activities required to complete ASDE-X
implementation and resolve operational performance issues identified during


Findings
                                                                                13


system testing before deploying key ASDE-X safety capabilities at remaining
airports. FAA concurred with our recommendations and agreed to take
appropriate action to address our concerns. We will continue to monitor FAA
efforts to deploy ASDE-X and implement much-needed safety capabilities.

Advanced Technologies and Oceanic Procedures (ATOP): This program is
FAA’s $548 million effort to modernize how controllers manage oceanic flights.
FAA now has ATOP in use at Oakland, California; New York, New York; and
Anchorage, Alaska. In FY 2007, Congress appropriated $30.9 million to FAA for
the ATOP program. In FY 2008, FAA expects to spend $52.8 million for ATOP.

FAA has experienced problems with this program that could impede its ability to
serve as a platform for NextGen capabilities. These include existing and potential
communication problems, which have limited some ATOP benefits, and large
contract cost increases.

 • Since September 2005, FAA controllers have experienced recurring failures
   (loss of data-link communication with aircraft and aircraft position jumps) with
   the new ATOP system at the Oakland site. These problems directly limited the
   potential capacity and productivity benefits from the new automation system.
   This could impact FAA’s plans for using ATOP to demonstrate NextGen
   capabilities.
   According to controllers, these incidents represented potentially hazardous
   safety conditions that must be resolved. The larger separation distances
   required between aircraft flying across oceans than for those in domestic
   airspace have allowed controllers to manage these problems. However,
   benefits from the new automation system, such as reduced separation, have not
   been fully realized.
 • While communication issues have been resolved, problems still persist with
   controllers receiving erroneous position reports. FAA is now in the position of
   introducing ATOP software enhancements while concurrently correcting new
   problems identified by controllers.
 • Finally, because FAA severely underestimated critical work areas in the
   original contract, it is planning to increase the contract cost by $90 million.
   This would increase the contract value from $306 million to $396 million—a
   29 percent increase. Since the contract was awarded in 2001, its value has
   increased from $217 million to $396 million. FAA officials stated the cost
   increase can be accommodated within the current baseline.




Findings
                                                                                           14


While FAA May Meet Cost and Schedule Goals, Its Metrics Do Not
Fully Assess Progress With Major Acquisitions
In its FY 2007 Flight Plan and most recent Performance and Accountability
Report, FAA reported that for FY 2006, 100 percent of its critical acquisitions
were within 10 percent of budget estimates and 97 percent were on schedule. In
FY 2006, FAA tracked 29 acquisitions, including the acquisition of new radars.
However, FAA’s cost and schedule metrics, which measure progress with
acquisitions, have limitations that decision makers must understand to properly
assess the overall status of FAA’s acquisition portfolio.


FAA’s Cost and Schedule Metrics for Acquisition Programs Are Useful but
Have Limitations
While FAA cost and schedule performance metrics are worthwhile tools for
Agency management and oversight of major acquisitions—a step we called for
several years ago 14 —these metrics have limitations that could hinder decision
makers’ visibility into the true status of major acquisitions. FAA’s cost and
performance metrics do not fully represent the status of its modernization efforts
for the following reasons:

     • First, FAA’s cost and schedule metrics are “snapshots” in time. They are not
       designed to address changes in requirements, reductions in procured units, or
       shortfalls in performance that occur over time. For example, while FAA has
       reduced quantities to be delivered in the ASR-11 and STARS/TAMR program,
       its cost and schedule metrics do not take these changes into account.
     • Second, FAA’s budget metrics compare cost estimates taken during the fiscal
       year using updated, “re-baselined” cost figures—not estimates from the
       original baseline. This is why the Wide Area Augmentation System (a
       satellite-based navigation system) is considered “on budget” even though costs
       have grown from $892 million to over $3 billion since 1998.
       We recognize that re-baselining a project is important to maintain realistic cost
       and schedule parameters and is consistent with OMB guidance and the
       Agency’s own Acquisition Management System. The revised baselines are
       used for justifying budgets and making investment decisions, i.e., ensuring that
       major acquisitions are still cost beneficial. We note that if OMB agrees to the
       new baseline, and Congress funds the acquisition, OMB allows FAA to
       measure deviations from the new baseline.
       However, OMB guidance states that all reporting on the project or program
       must also show deviations from the original baseline. FAA’s current

14
     OIG Report Number AV-2003-045, “Status of FAA’s Major Acquisitions,” June 26, 2003.


Findings
                                                                                            15


   comparisons of revised program baselines—absent additional information—
   fail to provide an accurate picture of a program’s true cost parameters.
 • Finally, FAA’s schedule metrics used for assessing progress with several
   programs in 2006 were generally reasonable but focused on interim steps or the
   completion of tasks instead of whether systems met operational performance
   goals. For example, ASDE-X metrics focused on delivery of two systems
   instead of whether systems entered service or met operational performance
   expectations. We found that there are no written criteria for selecting or
   reporting the milestones. Table 4 provides information on some of the metrics
   used for measuring progress with acquisitions in FY 2006.

           Table 4. FAA Schedule Metrics Used in FY 2006
           Program                     Metric             Planned Date      Actual Date
     ASDE-X                 Deliver two systems            February 2006    February 2006

     STARS                  Deliver to one site            February 2006    January 2006

     ATM                  Conduct detailed design           August 2006      March 2006
                          review
     Precision Runway     Complete factory acceptance        April 2006      April 2006
     Monitor              testing for Atlanta
     Wide Area            Complete initial installation of September 2006    May 2006
     Augmentation System two reference stations
    Source: FAA ATO-Finance Capital Expenditures Program Office

As FAA’s former chief operating officer stated, measuring cost and schedule may
not be sufficient in evaluating NextGen initiatives. We agree and believe it will be
important to focus on the promised capability and benefits of new initiatives,
particularly those associated with the goals of enhancing capacity, boosting
productivity, and reducing Agency operating costs. FAA should therefore explore
a wider range of metrics to measure and report progress with NextGen efforts.


Much Work Remains for FAA To Determine NextGen’s Impact on
Existing Projects
In February 2007, we recommended that FAA examine existing projects to
determine if they were still needed and, if so, what adjustments would be required.
FAA concurred and has begun this assessment. To date, however, FAA has not
made major adjustments to modernization projects. FAA faces complex
challenges with linking new and legacy systems and managing interdependences
among diverse projects. As FAA planning documents show, the pace of
introducing new automation, more flexible airspace, and data-link
communications will depend on the pace of existing projects. The success and
costs of these efforts will also be driven by an effective strategy for realigning air


Findings
                                                                                                          16


traffic control facilities with NextGen plans—a controversial issue with workforce
implications. FAA must continue to refine the NextGen Enterprise Architecture
and establish a transition path that clearly identifies the role of current systems and
requirements for the shift to NextGen.

Key Projects Serve as Platforms for NextGen Capabilities
According to FAA, approximately 30 existing capital programs will serve as
platforms for NextGen. These include ERAM (new hardware and software for
facilities that manage high-altitude traffic) and ATM (new tools for FAA to
manage the impact of bad weather). These programs were designed and approved
before the establishment of the JPDO and the NextGen concept of operations. As
a result, FAA faces complex integration challenges (see table 5).

                           Table 5. Key NextGen Platforms
                System                                        Status and Key Issues
 Terminal Modernization:                    FAA envisions relying on automation to boost controller
 STARS and Common Automated                 productivity in the future terminal environment. Problems
 Radar Terminal System (Common              with terminal modernization—with STARS in particular—
 ARTS): Delivers controller                 leave FAA in a difficult position to transition to NextGen.
 workstations that process surveillance     NextGen requirements are uncertain and need to be defined
 data and display it on-screen to manage    sooner rather than later.
 air traffic in the terminal environment.
 ERAM: Replaces the Host computer           With an estimated cost of $2.1 billion, ERAM is one of the
 hardware and software (including the       largest, most complex acquisitions in FAA’s modernization
 Host back-up system) and associated        portfolio. Several new capabilities (e.g., dynamic airspace
 support infrastructure at 20 en route      management and data link) depend on future enhancements to
 centers.                                   ERAM that have yet to be defined or priced.
 ATM: Modernizes the hardware and           FAA has identified ATM as an important effort for aircraft
 software used to manage the flow of air    trajectory operations throughout the NAS. ATM is designed
 traffic.                                   to support traffic management specialists and coordinators in
                                            managing air traffic flow. FAA will have to decide whether
                                            some new functions of the system will reside within ATM or
                                            ERAM.
Source: FAA

The $2.1 billion ERAM program is a linchpin for the NextGen system. Because
ERAM is expected to serve as a foundation for NextGen, any program cost
increases or schedule delays will affect the pace of introducing new capabilities.

Essentially, FAA is waiting to complete ERAM between 2009 and 2012 before
introducing NextGen-related capabilities. This is why many NextGen capabilities
(such as data link) are planned for completion as late as 2012 to 2015. Further,
many of these with respect to new automated capabilities and more flexible
airspace are planned in future software enhancements. FAA planning documents
we reviewed show as many as nine future software releases for ERAM (beyond
the three currently approved). The requirements and costs for the ERAM software
enhancements are uncertain but expected to be in the billions of dollars.

Findings
                                                                                  17


Critical Decisions on Existing Projects That Affect NextGen Are Needed in
the Short Term
Over the next 2 years, over 23 critical decisions must be made about ongoing
programs. These decisions affect major lines of the modernization effort with
respect to automation, communications, navigation, and surveillance.

 • Automation: FAA will approve a limited number of “candidate capabilities”
   and enhancements for the second major ERAM software release. In FY 2008,
   FAA will identify the requirements and cost parameters for new capabilities
   based on ERAM; these capabilities are planned for the 2012 to
   2018 timeframe. FAA will also have to address what changes are needed to
   modernize its terminal facilities and whether or not it will pursue a “common
   automation platform” for terminal and en route environments in the future.
 • Communications: Between FY 2008 and FY 2009, FAA plans to decide how
   to move forward with data communications and when to restart a data-link
   communications program for controllers and pilots. Costs remain uncertain,
   and FAA faces a myriad of complex questions about its overall technical
   approach, implementation plans, and rulemaking initiative timelines.
 • Navigation: In FY 2008, FAA intends to decide how much of the existing
   ground-based navigation system will be retained. Specifically, FAA will
   consider how best to move forward with the next generation precision and
   approach landing system and whether to pursue LAAS—which has been in
   research and development status since FY 2004.
 • Surveillance: As part of the effort to move forward with ADS-B, FAA must
   decide how to best incorporate “fusion” into existing air traffic control
   automation systems. Fusion in this context is defined as taking all surveillance
   data available for an aircraft and using the best data or combination of data to
   determine aircraft position and intent. Industry groups have asked FAA to
   accelerate its work on fusion.

A Key Cost Driver Will Be the Extent to Which FAA Realigns Air Traffic
Control Facilities
A key aspect of these decisions will be the extent to which FAA consolidates or
realigns air traffic control facilities as a result of modern information-sharing
technology. FAA points out that flexible ground communication networks do not
require facilities to be near the traffic they manage. FAA often cites its aging
facilities and the related expense of maintaining such a large number of facilities
to justify consolidating the air traffic control system into a small number of
facilities. FAA currently operates 21 en route centers, over 200 terminal facilities,



Findings
                                                                                                                     18


and 9,000 unstaffed facilities. The size and location of FAA facilities directly
affect system requirements and costs and have workforce implications.

Because of the controversial nature of the issue, some have advocated a base
closure commission to help FAA and Congress make decisions on FAA facilities.
FAA’s reauthorization proposal called for a “Realignment and Consolidation of
Aviation Facilities Commission” to conduct an independent review and make
recommendations to the President. The House and Senate reauthorization
proposals for FAA (H.R. 2881 and S. 1300) also recognized the issue of
consolidation and the need for further examination. While there are some
technical prerequisites (such as a new voice switch), how to best realign or
consolidate FAA facilities is a policy issue for Congress.


Decisions on Transitioning to NextGen Depend Heavily on an Enterprise
Architecture, Which Currently Lacks Important Details
These decisions and many others will depend heavily on the development of a
comprehensive Enterprise Architecture 15 that outlines the vision of how the
system will work and how necessary changes will be accomplished. The
Enterprise Architecture must establish a transition plan that identifies the role and
evolution of current systems and how they will transition to NextGen. A central
element will be outlining a path to develop both existing and proposed automation
systems.

To date, FAA has made progress in developing NextGen’s Enterprise
Architecture, which is planned for implementation by 2025. FAA has also
progressed towards technical roadmaps for the automation, communications,
navigation, and surveillance lines of effort. In addition, FAA has decided to rely
on the Operational Evolution Partnership (OEP), the Agency’s blueprint for
enhancing capacity, to help manage and implement NextGen initiatives.

However, planning documents we reviewed lacked detail regarding requirements,
particularly for automation, that could be used to develop reliable cost estimates
and schedules. These documents describe a general path for over 60 decisions that
must be made over the next 18 years. An October 2007 MITRE Corporation
assessment 16 of the Enterprise Architecture highlighted several areas that need
improvement, including unresolved technical issues and gaps between the
Enterprise Architecture and the NextGen concept of operations. MITRE noted


15
     An enterprise architecture is a blueprint that links core programs and systems to an agency’s mission. This includes
     the transition from the “as-is” to the “to-be” environment.
16
     “Observations, Results, and Recommendations, NextGen v2.0 Assessment,” Center for Advanced Aviation Systems
     Development, MITRE Corporation, October 15, 2007.


Findings
                                                                                19


that, in most cases, information in the NextGen Enterprise Architecture remained
at too high of a level to be effective.

At this point, it is difficult for FAA to determine what to invest in first to move
forward with NextGen. FAA needs to identify the highest priority operational
improvements (high-density airports; high-altitude, trajectory-based operations; or
networked facilities) and systems for NextGen from the large number of
possibilities in various planning documents. These priorities should then be
reflected in NextGen planning documents and budget requests.

In addition, the Enterprise Architecture does not detail how FAA will complete the
transition between the present NAS and the future NextGen architectures, which
are considerably different. Understanding this gap is important because one
industry analysis suggests that FAA could face a $50 billion software development
effort with NextGen. Until FAA completes a gap analysis, it will not be possible
to determine technical requirements that translate into reliable cost and schedule
estimates for major acquisitions. Efforts are underway to reconcile differences
between the current and NextGen enterprise architectures, but more work is
required.

Because of the significant differences between the current system and the
NextGen architecture and concept of operations, some FAA and industry officials
believe FAA should develop an interim architecture or “way-point” for the
2015 timeframe that is consistent with plans in the OEP. This would help bridge
the gap between current systems and plans for the future. It also would help FAA
determine reasonable goals, establish priorities, fully identify adjustments to
existing projects, refine requirements for new systems, and obtain an
understanding of complex transition issues.

As we have previously noted, FAA faces enormously complex integration
challenges with NextGen. FAA officials commented that the interim architecture
should serve as the basis for an integrated program plan that establishes an
executable acquisition plan for NextGen though 2017. This plan should go
beyond what is envisioned in the OEP and include detailed cost, schedule,
requirements, acquisition strategies, risk management, and the supporting
organizational structures to execute the integrated program.

Congress has recognized the importance of the NextGen architecture and the
transition plan for existing modernization efforts to future systems. In the House
proposal for reauthorizing FAA, the Agency is directed to have the National
Research Council review the NextGen architecture. This review is expected to
examine, among other things, the technical activities that will be needed to
transition current and planned modernization efforts to the future system. We



Findings
                                                                                20


believe that such an assessment is important to reduce risk with developing and
implementing NextGen capabilities.


RECOMMENDATIONS
FAA faces challenges with completing existing projects, maintaining existing
programs, and developing NextGen without cost growth and schedule slips. We
have made numerous recommendations over the years to strengthen FAA’s
management of major acquisitions. In February 2007, we recommended that FAA
review ongoing modernization projects to determine what cost and schedule
adjustments would be required to better manage NextGen efforts. We also
recommended that FAA determine what skill sets would be required to manage
and execute NextGen initiatives. FAA concurred with our recommendations and
began actions to address our concerns. At this time, we are recommending the
following actions to FAA:

   1. Develop written criteria for the selection of milestone metrics that are used
      for tracking progress with major acquisitions and reported in Agency plans
      and reports.

   2. Develop and report on a new set of metrics for measuring progress with
      NextGen initiatives that focus on the delivery of a new capability with
      respect to enhancing capacity, boosting productivity, or reducing Agency
      operating costs.

   3. Complete a gap analysis of the NAS enterprise architecture that closely
      examines current systems (the “as is”) and the planned NextGen enterprise
      architecture (the “to be”) and develop and establish priorities.

   4. Once the gap analysis is completed, develop an interim architecture that
      details what can be accomplished in the 2015 timeframe that will allow
      FAA to more accurately determine costs and other factors required for
      NextGen.

   5. Use the interim architecture as the basis for an integrated program plan that
      establishes an executable program for the NextGen capabilities. This effort
      should include detailed cost, schedule, requirements, acquisition strategies,
      risk management, and the supporting organizational structures to execute
      the integrated program.




Recommendations
                                                                               21




AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
On February 1, 2008, we provided FAA with our draft report. We held an exit
conference with FAA officials from the Air Traffic Organization and JPDO on
February 21 to discuss our findings and recommendations. The officials generally
concurred with all of our recommendations, including the need to develop written
criteria for selecting milestones used to track progress with major acquisitions,
establish metrics for measuring progress with NextGen initiatives, and develop an
interim architecture for NextGen.

FAA officials noted that FAA has initiated efforts to accelerate elements of
NextGen and develop new metrics to progress with those elements. They also
emphasized that the purpose of NextGen is not only to modernize but also to
fundamentally transform how air traffic is managed. Finally, the officials offered
technical comments with respect to the ADS-B, ASDE-X, and FTI programs. We
discussed these issues with them and have adjusted our report as appropriate.




Agency Comments and Office of Inspector General Response
EXHIBIT A. STATUS OF FAA’S MAJOR ACQUISITIONS (AS OF SEPTEMBER 2007)


Program Name, Description,     Original       Current           Original         Current            Status and Key Issues Affecting
 Purpose, and Contractor     Program Cost   Program Cost       Deployment       Deployment                  Implementation
          Name                 Estimate       Estimate          Schedule         Schedule

Advanced Technologies and $548.2 million    $548.2 million   Start: 2004      Start: 2004    ATOP is now operational at Oakland, New
Oceanic Procedures                                           Finish: 2006     Finish: 2006   York, and Anchorage Air Route Traffic
(ATOP):                                                                                      Control Centers that manage oceanic traffic.
Modernizes FAA facilities that                                                               We note that ATOP is expected to help
are responsible for managing                                                                 demonstrate NextGen automation capabilities.
large segments of airspace
                                                 ATOP is a key NextGen initiative for
over the Atlantic and Pacific                                                                Because FAA severely underestimated critical
                                                 demonstrating new automation
Oceans. FAA plans call for an                                                                work areas in the original contract, it is
                                                 capabilities.
integrated system for flight                                                                 currently planning to increase the contract cost
data processing, detecting                                                                   by $90 million. This would increase the
conflicts between aircraft, data                                                             contract value from $306 million to
link, and surveillance                                                                       $396 million—a 29 percent increase. FAA
capabilities.                                                                                officials have stated that the cost increase can
                                                                                             be accommodated within the current baseline.
Contractor:
Lockheed/Martin                                                                              FAA controllers have raised legitimate
                                                                                             concerns about recurring failures (loss of data-
Responsible Service Unit:                                                                    link communication with aircraft and aircraft
En Route & Oceanic                                                                           position jumps) with ATOP. These problems
Services                                                                                     represent potentially hazardous safety
                                                                                             conditions and directly limit promised capacity
                                                                                             and productivity benefits, such as reduced
                                                                                             separation. Over the past year, FAA has
                                                                                             addressed problems with ATOP while
                                                                                             deploying new capabilities; it will continue to
                                                                                             do so going forward.




Exhibit A. Status of FAA’s Major Acquisitions (as of September 2007)                                                           22
Program Name, Description,            Original         Current          Original          Current               Status and Key Issues Affecting
 Purpose, and Contractor            Program Cost     Program Cost      Deployment        Deployment                     Implementation
          Name                        Estimate         Estimate         Schedule          Schedule

Air Traffic Control Beacon          $281.8 million   $282.9 million   Start: 2000       Start: 2002       FAA has installed 112 out of 130 operational
Interrogator-6 (ATCBI-6):                                             Finish: 2004      Finish: 2009      ATCBI-6 systems and 6 out of 7 support
A ground-based system that                                                                                systems. Of the operational systems, 88 are
interrogates transponders,                                                                                commissioned. However, the program is
receives and processes replies                                                                            requesting, in an upcoming JRC review, to
from transponders, determines                                                                             extend the deployment schedule to May 2010.
the range and direction to/from
aircraft, and forwards the                                                                                A number of factors have contributed to the
information to appropriate air                                                                            need for rebaselining, including prior
traffic control automation                                                                                reductions in funding and an increased number
systems. Replies from aircraft                                                                            of systems being deployed due to agency cost
provide transponder                                                                                       share agreements, congressional earmarks, and
identification and altitude data,                                                                         other government programs. However, due to
which are displayed on the                                                                                implementation efficiencies, the new cost
controller’s screen.                                                                                      baseline will be reduced to $251.7 million.

Contractor: Raytheon

Responsible Service Unit:
En Route & Oceanic
Services


Air Traffic Management              $454.3 million   $454.3 million   Start: 2007       Start: 2007       ATM is an important effort to address capacity
(ATM):                                                                Finish: 2011      Finish: 2011      in both the short and long term. It is an
Consists of: Traffic Flow                                             (Up to Work       (Up to Work       important tool in reducing the impact of bad
Management - Modernization                                            Package #1.       Package #1.       weather throughout the National Airspace
and Collaborative Air Traffic                                         Additional        Additional        System.
Management Technologies                                               segments are to   segments are to
(CATMT). TFM-M                                                        be determined.)   be determined.)   Although the ATM effort has not experienced
modernizes the infrastructure                                                                             cost increases or schedule delays, we are
that serves as the automation                                                                             concerned about risks and what will ultimately
backbone for the nationwide                                                                               be delivered. Our concerns are based on the



Exhibit A. Status of FAA’s Major Acquisitions (as of September 2007)                                                                      23
Program Name, Description,           Original         Current            Original             Current           Status and Key Issues Affecting
 Purpose, and Contractor           Program Cost     Program Cost        Deployment           Deployment                 Implementation
          Name                       Estimate         Estimate           Schedule             Schedule
traffic management units that                                                                             fact the FAA and the contractor significantly
assist in the strategic planning                                                                          underestimated the size and complexity of
and management of air traffic.                                                                            TFM-M software development. FAA has
                                                  ATM is a key platform for NextGen
CATMT (Work Package #1)                                                                                   modified the contract and adjusted the scope of
                                                  initiatives. ATM efforts will have to be
provides new decision support                                                                             the work. The current risks for ATM focus on
                                                  integrated with automation and
tools to deliver additional user                                                                          developing complex software and integrating
                                                  communication programs.
benefits and increase the                                                                                 the ATM with other NAS systems.
effective capacity of the NAS.

Contractor:
Computer Sciences
Corporation (TFM-M)
Volpe NTSC, and various
others (CATMT)

Responsible Service Unit:
Systems Operations


Airport Surface Detection       $424.3 million     $549.8 million      Start: 2003       Start: 2003      ASDE-X is an important technology to prevent
Equipment-X (ASDE-X):                              (Includes           Finish: 2007      Finish: 2011     accidents on airport runways and taxiways.
ASDE-X provides surveillance                       $77 million in                                         FAA last re-baselined ASDE-X in September
equipment and conflict alerting                    technical refresh                                      2005, increasing costs from $505.2 million to
safety logic to prevent runway                     costs.)                                                $549.8 million and extended the deployment
incursions at a large number of                                                                           completion date from 2007 to 2011.
airports. Implementation of
these systems will improve                                                                                ASDE-X was initially envisioned to provide a
controller situational                                                                                    low-cost alternative system for small- to
awareness of the airport                                                                                  medium-sized airports similar to FAA’s ASDE-3
movement area.                                                                                            radar system, but has evolved into a different
                                                                                                          program. FAA made a significant change to the
Contractor: Sensis Corp.                                                                                  program in September 2005 and not only intends
                                                                                                          to upgrade ASDE-3 systems with ASDE-X
                                                                                                          capabilities at 25 large airports but also will


Exhibit A. Status of FAA’s Major Acquisitions (as of September 2007)                                                                       24
Program Name, Description,           Original         Current          Original       Current             Status and Key Issues Affecting
 Purpose, and Contractor           Program Cost     Program Cost      Deployment     Deployment                   Implementation
          Name                       Estimate         Estimate         Schedule       Schedule

Responsible Service Unit:                                                                          install the system at 10 other airports that
Terminal Services                                                                                  currently lack any surface surveillance
                                                                                                   technology.

                                                                                                   We remain concerned about the possibility of
                                                                                                   further increases and schedule slips, and when
                                                                                                   operational performance issues with key safety
                                                                                                   features will be resolved.


Airport Surveillance Radar         $743.3 million   $696.5 million   Start: 2000    Start: 2003    The ASR-11 program has undergone
(ASR-11):                                                            Finish: 2005   Finish: 2009   significant changes since our last report. In
                                                                                                   2005, FAA re-baselined the effort to address
Replaces aging ASR-7 and                                                                           cost and schedule issues.
ASR-8 analog radars at small
terminal facilities with digital                                                                   FAA now plans to deploy only 66 of the 112
radar. ASR-11 can be used by                                                                       originally planned systems. This accounts for
Common ARTS and STARS.                                                                             the slight reduction in the costs associated with
This is a joint effort with the                                                                    the ASR-11 program. FAA also extended the
Department of Defense.                                                                             deployment schedule by 4 years.

Contractor: Raytheon                                                                               Surveillance architecture consists of the
                                                                                                   following basic elements: radar systems,
Responsible Service Unit:                                                                          beacon systems, and Automatic Dependent
Terminal Services                                                                                  Surveillance – Broadcast (ADS-B). In
                                                                                                   September 2006, FAA decided to continue to
                                                                                                   limit the ASR-11 baseline to 66 systems and
                                                                                                   wait until the ADS-B investment decision
                                                                                                   before re-evaluating the business case for
                                                                                                   replacing the remaining legacy radars. In
                                                                                                   February 2007, the ADS-B program office
                                                                                                   proposed to retain primary radars as part of its
                                                                                                   backup strategy, therefore the ASR-11 program
                                                                                                   decided to go forward with its re-evaluation.


Exhibit A. Status of FAA’s Major Acquisitions (as of September 2007)                                                                    25
Program Name, Description,           Original          Current           Original           Current               Status and Key Issues Affecting
 Purpose, and Contractor           Program Cost      Program Cost       Deployment         Deployment                     Implementation
          Name                       Estimate          Estimate          Schedule           Schedule
                                                                                                           No baseline changes were required for ASR-11
                                                                                                           based upon the ADS-B backup strategies.

                                                                                                           Any delays in implementing ADS-B will force
                                                                                                           FAA to rethink its investments in ground-based
                                                                                                           radar technology.


Automatic Dependent                $1.66 billion     $1.66 billion     Start: 2007       Start: 2007       ADS-B is a cornerstone technology for
Surveillance-Broadcast             (Segments 1 and   (Segments 1 and   Finish: 2013      Finish: 2013      NextGen and has considerable potential for
(ADS-B) NAS-Wide                   2)                2)                (Additional       (Additional       enhancing safety and boosting capacity. In
Implementation:                                                        segments are to   segments are to   June 2006, FAA approved the first 2 years of
ADS-B is a technology that                                             be determined.)   be determined.)   ADS-B which involves development,
relies on GPS to broadcast the                                                                             validation of services, and limited deployment.
positions of properly equipped
aircraft and surface vehicles.                                                                             FAA awarded a $1.8 billion service contract
Formerly funded under the                                                                                  for ADS-B in August 2007 to build the ground
Safe Flight 21 Initiative, ADS-                                                                            infrastructure. With this type of contract, the
B is expected to provide air-to-                                                                           Government will not own the ground
air and air-to-ground                                                                                      infrastructure but will pay for ADS-B services.
surveillance capability                                 ADS-B is a key NextGen initiative.
throughout the NAS.                                     Airspace users must equip to obtain                Initially, FAA is focusing on “ADS-B OUT” as
                                                        benefits and FAA intends to rely on                a replacement for or adjunct to current radar.
Contractor(s):                                          rulemaking initiative to spur equipage.            However, most benefits are expected with
ITT Corp.                                                                                                  “ADS-B IN,” which will display traffic
                                                                                                           information in the cockpit. This will facilitate
Responsible Service Unit:                                                                                  self-separation.
En Route & Oceanic
Services                                                                                                   Realizing the full range of ADS-B benefits will
                                                                                                           depend on mitigating risk in a number of areas,
                                                                                                           including airspace users equipping with new
                                                                                                           avionics. FAA intends to rely on a rulemaking
                                                                                                           initiative to spur aircraft equipage. Other risks



Exhibit A. Status of FAA’s Major Acquisitions (as of September 2007)                                                                         26
Program Name, Description,         Original        Current         Original       Current               Status and Key Issues Affecting
 Purpose, and Contractor         Program Cost    Program Cost     Deployment     Deployment                     Implementation
          Name                     Estimate        Estimate        Schedule       Schedule
                                                                                                  involve addressing broadcast frequency
                                                                                                  congestion concerns, implementing procedures
                                                                                                  for separating aircraft, and assessing security
                                                                                                  vulnerabilities in managing air traffic.



Collaborative Decision           $75.9 million   $56.4 million   Start: 2002    Start: 2002       The CDM effort was part of the Free Flight
Making (CDM):                                                    Finish: 2005   Finish: see Air   Phase I and II initiatives. It introduced
Part of Air Traffic                                                             Traffic           information exchange systems between the
Management (ATM), CDM                                                           Management        FAA and airline operations centers.
allows information exchange                                                     (ATM)
and consultation with airline                                                                     In August 2005, the CDM program became
operation centers to determine                                                                    part of the Collaborative Air Traffic
the most acceptable strategies                                                                    Management Technologies within the Air
to reduce delays.                                                                                 Traffic Management line of effort. CATMT
Contractors: Volpe NTSC,                                                                          will encompass the same type of software
Metron Aviation, Northrup-                                                                        enhancements that were formerly provided by
Grumman                                                                                           CDM.
Responsible Service Unit:
System Operations




Exhibit A. Status of FAA’s Major Acquisitions (as of September 2007)                                                               27
Program Name, Description,         Original         Current            Original           Current           Status and Key Issues Affecting
 Purpose, and Contractor         Program Cost     Program Cost        Deployment         Deployment                 Implementation
          Name                     Estimate         Estimate           Schedule           Schedule

Controller-Pilot Data Link       $166.7 million   $118 million      Start: 2003        Start: N/A     FAA has long considered an effective
Communications (CPDLC):          (Builds 1 and    (Amount           Finish: 2005       Finish: N/A    controller-pilot data link essential for
Designed to provide a digital    1A)              expended)                                           enhancing capacity. FAA cancelled its most
data communications                                                                                   recent CPDLC effort (a limited deployment) in
capability for ATC operations                                                                         April 2003 because of concerns about airspace
that will be an enhancement to                                                                        user equipage and increased costs. We
existing air/ground voice                            Data Link Communications are a key               documented FAA’s reasons in our September
communications.                                      NextGen initiative for reducing voice            2004 report.
                                                     communications and enhancing
Responsible Service Unit:                            controller productivity.                         Data link communications are a key element in
En Route & Oceanic                                                                                    NextGen to enhance capacity and boost
Services                                                                                              productivity. FAA is planning to restart this
                                                                                                      effort as part of a NextGen initiative and has
                                                                                                      scheduled an initial investment decision for FY
                                                                                                      2008.


En Route Automation              $2.154 billion   $2.142 billion    Start: 2009        Start: 2009    ERAM is currently on budget and on schedule
Modernization (ERAM):                                               Finish: 2010       Finish: 2010   and is meeting performance milestones. The
Replaces the Host computer                                                                            next major milestone is Government
hardware and software,                                                                                Acceptance, which is planned for October
including the Host backup                            ERAM is a key platform for NextGen               2007, 6 months earlier than planned.
system, and associated support                       Automation efforts that will provide for
infrastructure, at 20 En Route                       greater controller productivity.                 ERAM is currently managing several
Centers.                                                                                              significant risks dealing with system
                                                                                                      complexity and software development, training
Contractors:                                                                                          and transition issues, and operational
Lockheed/Martin (prime),                                                                              acceptance.
and Raytheon
(subcontractor)                                                                                       The ERAM program will provide a modern
                                                                                                      and slightly more capable replacement for the
Responsible Service Unit:                                                                             existing Host computer system. An expanded
En Route & Oceanic                                                                                    ERAM is being envisioned as the primary



Exhibit A. Status of FAA’s Major Acquisitions (as of September 2007)                                                                  28
Program Name, Description,        Original         Current          Original       Current             Status and Key Issues Affecting
 Purpose, and Contractor        Program Cost     Program Cost      Deployment     Deployment                   Implementation
          Name                    Estimate         Estimate         Schedule       Schedule

Services                                                                                        automation system for NextGen to provide
                                                                                                flight data, trajectory-based services for high
                                                                                                and low altitude air traffic. The follow-on
                                                                                                ERAM program will include additional
                                                                                                software releases and hardware upgrades that
                                                                                                will provide the new capabilities envisioned for
                                                                                                NextGen. These upgrades are currently
                                                                                                undefined and likely will require billions of
                                                                                                dollars to develop and field.

                                                                                                Cost increases or schedule slips to the existing
                                                                                                ERAM program would have a cascading
                                                                                                impact on other capital programs and could
                                                                                                directly affect the pace of the overall transition
                                                                                                to NextGen.



FAA Telecommunications          $205.5 million   $318.8 million   Start: 2002    Start: 2002    FTI is a key telecommunications program that
Infrastructure (FTI):                                             Finish: 2007   Finish: 2008   FAA expects to significantly reduce Agency
FTI is designed to phase out                                                                    operating costs.
older telecommunications
systems and replace them with                                                                   FAA re-baselined FTI in August 2006,
one provider responsible for                                                                    extending the transition end date by 12 months
operating and maintaining                                                                       to December 2008. FAA extended the
FAA telecommunications                                                                          schedule to address a number of risks
infrastructure.                                                                                 associated with completing the FTI transition
                                                                                                by December 2007.
Contractor:
Harris Corporation                                                                              FAA continues to face challenges in
                                                                                                implementing FTI. FAA has a backlog of
Responsible Service Unit:                                                                       more than 1,000 FTI services, but considers the
Technical Operations                                                                            remaining work manageable. The program’s



Exhibit A. Status of FAA’s Major Acquisitions (as of September 2007)                                                               29
Program Name, Description,         Original         Current           Original          Current           Status and Key Issues Affecting
 Purpose, and Contractor         Program Cost     Program Cost       Deployment        Deployment                 Implementation
          Name                     Estimate         Estimate          Schedule          Schedule
                                                                                                    estimated benefit associated with savings is
                                                                                                    eroding. By the end of FY 2006, we estimated
                                                                                                    that the benefit, in terms of estimated cost
                                                                                                    savings, had dropped from the original
                                                                                                    estimate of $820 million to $434 million.
                                                                                                    Finally, FAA must ensure FTI diversity
                                                                                                    requirements are met to reduce the risks of
                                                                                                    unscheduled system outages.


Integrated Terminal              $276.1 million   $286.1 million    Start: 2002      Start: 2003    FAA has installed 17 of 22 operational ITWS
Weather System (ITWS):                                              Finish: 2003     Finish: 2009   systems and four support systems. Of the
Acquires and integrates                                                                             operational systems, 15 are commissioned. In
weather data from multiple                                                                          May 2004, FAA decided to defer 12 systems to
sensors, and provides traffic                          ITWS is an enabling technology for           allow the incorporation of the Terminal
management units with a                                NextGen.                                     Convective Weather Forecast (TCWF) while
graphic display of weather                                                                          remaining within funding levels.
information that needs no
meteorological interpretation.                                                                      FAA completed the development of TCWF
This includes (1) a display of                                                                      enhancement in April 2006 and has retrofitted
terminal winds aloft and (2) a                                                                      9 of 11 ITWS that were installed prior to
20-minute prediction of                                                                             TCWF development.
convective weather.
                                                                                                    In an upcoming JRC review, FAA plans to
Contractor: Raytheon
                                                                                                    make a deployment decision regarding the
Responsible Service Unit:                                                                           12 systems, which may extend the schedule
Terminal Services                                                                                   baseline and increase operation and
                                                                                                    maintenance costs; however, cost and schedule
                                                                                                    baselines are still being validated.




Exhibit A. Status of FAA’s Major Acquisitions (as of September 2007)                                                                30
Program Name, Description,           Original         Current           Original           Current           Status and Key Issues Affecting
 Purpose, and Contractor           Program Cost     Program Cost       Deployment         Deployment                 Implementation
          Name                       Estimate         Estimate          Schedule           Schedule

Local Area Augmentation            $530.1 million   $719.5 million      Start: 2002      Start: N/A    FAA has deferred making decisions about how
System (LAAS):                                      (Includes           Finish: to be    Finish: N/A   to move forward with LAAS until the
LAAS is a precision approach                        $111.1 million      determined                     2008/2009 timeframe and the effort has been in
and landing system that is                          for technical                                      a research and development mode since 2004.
expected to boost airport                           refresh)                                           Consequently, firm cost and schedule baselines
arrival rates under all weather                                 Airspace users must equip to obtain    do not exist.
conditions. It provides the                                     benefits.
augmentation needed at 160                                                                             FAA intends to continue the development
airports to make GPS fully                                                                             activities to complete a design capable of
usable for Categories I, II, and                                                                       achieving expected performance parameters.
III precision approaches at
selected airports.                                                                                     FAA is planning a cooperative agreement with
                                                                                                       Department of Defense to achieve Category III
Contractor: Honeywell                                                                                  performance with the Department of Defense
                                                                                                       system, the Joint Precision Approach and
Responsible Service Unit:                                                                              Landing System (JPALS). Also, FAA is
Technical Operations                                                                                   cooperating with Air Services Australia to
                                                                                                       develop the LAAS integrity design.

                                                                                                       Although decisions for LAAS have been
                                                                                                       postponed, we note that in its Capital
                                                                                                       Investment Plan, the FAA is allocating about
                                                                                                       $400 million for LAAS for FY 2012 and
                                                                                                       beyond.




Exhibit A. Status of FAA’s Major Acquisitions (as of September 2007)                                                                   31
Program Name, Description,         Original         Current           Original       Current            Status and Key Issues Affecting
 Purpose, and Contractor         Program Cost     Program Cost       Deployment     Deployment                  Implementation
          Name                     Estimate         Estimate          Schedule       Schedule

Next Generation VHF              $406.0 million   $324.7 billion    Start: 2002    Start: 2004    NEXCOM was originally envisioned as
Air/Ground                       (Segment 1       (Segment 1a       Finish: 2008   Finish: 2013   program to revamp voice and data
Communications                   only)            only. The total   (Key site)     (Segment 1a    communications in the National Airspace
(NEXCOM):                                         estimate                         only)          System. It is now essentially a radio
Replaces and modernizes the                       outlined in FAA                                 replacement program.
aging and obsolete national                       CIP for all
airspace system (NAS) air-to-                     segments is                                     In March 2004, FAA deferred major elements
ground analog radio                               $1.26 billion.)                                 of NEXCOM. In December 2005, NEXCOM
communications infrastructure                                                                     was re-baselined only for the purchase and
and will address the impending                                                                    installation of multimode digital radios in the
shortage of communication                                                                         analog mode (segment 1a) in en-route
frequency spectrum.                                                                               facilities. FAA has requested funding to
                                                                                                  complete an investment analysis and initiate an
Contractor: ITT                                                                                   acquisition to replace radios in terminal and
                                                                                                  flight service facilities.
Responsible Service Unit:
Technical Operations                                                                              According to FAA, efforts to modernize
                                                                                                  communications by providing data
                                                                                                  communications capabilities will be funded
                                                                                                  through the new NextGen Data
                                                                                                  Communications program. FAA faces a
                                                                                                  myriad of complex decisions about
                                                                                                  requirements, technical approaches, and ways
                                                                                                  to transition new communication systems.




Exhibit A. Status of FAA’s Major Acquisitions (as of September 2007)                                                               32
Program Name, Description,          Original         Current            Original        Current             Status and Key Issues Affecting
 Purpose, and Contractor          Program Cost     Program Cost        Deployment      Deployment                   Implementation
          Name                      Estimate         Estimate           Schedule        Schedule

Standard Terminal                 $940.2 million   $2.719 billion     Start: 1998    Start: 2002     The STARS program (now referred to as
Automation Replacement                             (Includes          Finish: 2005   Finish: to be   TAMR Phase I) has a long history of cost
System (STARS) - Terminal                          $585 million for                  determined      increases and schedule slips. It is no longer the
Automation Modernization/                          technical                                         program that FAA originally envisioned. In
Replacement Program                                refresh.)                                         2004, faced with cost growth in excess of
(TAMR) Phase I:                                                                                      $2 billion for STARS, FAA rethought its
Replaces controller and                                                                              terminal modernization strategy. The Agency
maintenance workstations with                                                                        committed to deploying STARS at 50 sites
color displays, processors, and                                                                      (later reduced to 47) at a cost of $1.46 billion
computer software at terminal                                                                        as opposed to the original plan for 172 sites at
air traffic control facilities.                                                                      a cost of $940 million.

Contractor: Raytheon                                                                                 STARS is fully operational at 46 of the
                                                                                                     47 sites. Norfolk—the 46th site—achieved
Responsible Service Unit:                                                                            Initial Operational Capability in June 2007. At
Terminal Services                                                                                    the remaining site—Dayton—the hardware
                                                                                                     will be placed in storage awaiting facility
                                                                                                     construction completion.

                                                                                                     There is no current defined “end state” for
                                                                                                     terminal modernization, and past problems
                                                                                                     with STARS leaves FAA in a difficult position
                                                                                                     to begin transitioning to NextGen capabilities.
                                                                                                     Future costs will be shaped by (1) NextGen
                                                                                                     requirements, (2) the extent of FAA’s terminal
                                                                                                     facilities consolidation, and (3) the need to
                                                                                                     replace or sustain existing (legacy) systems
                                                                                                     that have not yet been modernized.




Exhibit A. Status of FAA’s Major Acquisitions (as of September 2007)                                                                   33
Program Name, Description,          Original          Current           Original             Current                Status and Key Issues Affecting
 Purpose, and Contractor          Program Cost      Program Cost       Deployment           Deployment                      Implementation
          Name                      Estimate          Estimate          Schedule             Schedule

System-Wide Information           $96.6 million     $96.6 million     Start: 2009         Start: 2009         SWIM is a key transformational program for
Management (SWIM):                (FAA CIP cost     (FAA CIP cost     Finish: 2010        Finish: 2010        the development of NextGen. FAA decided to
SWIM will provide a NAS-          estimate:         estimate:         (FAA baselined      (FAA baselined      baseline the first 2 years of segment 1 of the
wide information web to           $285.0 million)   $285.0 million)   the first 2 years   the first 2 years   program (FY 2009-FY 2010) to allow
connect FAA systems to each                                           of segment 1.       of segment 1.       assessment of commercial off-the-shelf
other and enable interaction                                          Additional          Additional          products to satisfy SWIM requirements, design
with members of the decision                                          segments are to     segments are to     capabilities, and deploy selected capabilities.
making community. To the                                              be determined.)     be determined.)     Much work remains to determine the
extent practicable, SWIM will                                                                                 requirements and interfaces with other FAA
leverage existing systems and                                                                                 systems.
networks based on proven
technologies in the operational
                                                         SWIM is a key NextGen initiative that
and demonstration
                                                         will provide the basis for net-centric
environment.
                                                         communications.
Contractor: To Be
Determined

Responsible Service Unit:
Technical Operations




Exhibit A. Status of FAA’s Major Acquisitions (as of September 2007)                                                                           34
Program Name, Description,           Original         Current            Original       Current             Status and Key Issues Affecting
 Purpose, and Contractor           Program Cost     Program Cost        Deployment     Deployment                   Implementation
          Name                       Estimate         Estimate           Schedule       Schedule

Terminal Automation                $139.5 million   $139.5 million     Start: 2007    Start: 2007    FAA is also funding ongoing terminal
Modernization/Replacement          (Includes        (Includes          Finish: 2008   Finish: 2008   modernization through a follow-on effort
Program (TAMR) – Phase II          $82.9 million    $82.9 million                                    called TAMR Phase II. This effort has its own
Modernizes the automation          for technical    for technical                                    baseline and funding profile in the FAA’s
systems that provide air traffic   refresh)         refresh. The                                     Capital Investment Plan.
controllers with the                                current estimate
information needed to safely                        for Phase III,                                   In June 2005, FAA approved modernizing five
and efficiently control air                         while not                                        small sites with STARS and replacing aging
traffic in the terminal                             approved, is                                     displays at four large, complex sites (Chicago,
environment.                                        $654 million.)                                   IL; Denver, CO; St. Louis, MO; and
                                                                                                     Minneapolis, MN) at a cost of $57 million.
Contractor: Raytheon                                                                                 These sites are particularly critical to the NAS.
(primary), Lockheed Martin                                                                           However, this leaves over 100 small sites that
(subcontractor)                                                                                      are still in need of modernization.

Responsible Service Unit:                                                                            The most urgent concern facing terminal
Terminal Services                                                                                    modernization is how quickly FAA can replace
                                                                                                     aging displays at the four critical sites. FAA
                                                                                                     chose not to compete this work based on a joint
                                                                                                     proposal from two contractors and instead
                                                                                                     decided to modify the current STARS contract
                                                                                                     to include the work. Although this was
                                                                                                     expected to expedite replacement of the aging
                                                                                                     displays, the time spent revising the contract
                                                                                                     caused FAA to lose the time advantage from
                                                                                                     forgoing competition. As a result, the aging
                                                                                                     displays will not be replaced until 2008.




Exhibit A. Status of FAA’s Major Acquisitions (as of September 2007)                                                                   35
Program Name, Description,            Original         Current           Original          Current            Status and Key Issues Affecting
 Purpose, and Contractor            Program Cost     Program Cost       Deployment        Deployment                  Implementation
          Name                        Estimate         Estimate          Schedule          Schedule

Traffic Management Advisor          $135.5 million   $135.5 million    Start: 2003      Start: 2004    TMA was developed and implemented as part
(TMA):                                                                 Finish: 2006     Finish: 2008   of the Free Flight Phase I and II initiatives. In
TMA is an automated                                                                                    May 2005, FAA established a specific baseline
decision-support system that                                                                           for TMA.
allows air traffic controllers to                         TMA is a contributing technology for
sequence aircraft in a way that                           NextGen.                                     TMA was deployed at six en route centers
that reduces airspace                                                                                  under Free Flight Phase I and at four additional
congestion and optimizes                                                                               en route centers under Free Flight Phase II.
airport arrival capacity.
                                                                                                       In June 2005, the FAA Administrator directed
Contractor: Computer                                                                                   the delivery of TMA to seven en route centers
Sciences Corporation                                                                                   and TMA is currently being deployed at these
                                                                                                       sites. This was done within the framework of
Responsible Service Unit:                                                                              the existing budget and the only impact is an
En Route & Oceanic                                                                                     extended final deployment schedule.
Services

User Request Evaluation          $285.3 million      $284.1. million   Start: 2003      Start: 2003    FAA developed and implemented URET as
Tool (URET):                                                           Finish: 2006     Finish: 2006   part of the Free Flight Phase I and II initiatives.
URET is a decision support aid                                                                         In May 2005, FAA established a specific
that automatically tells air                                                                           baseline for URET.
traffic controllers of potential
conflicts between aircraft and                                                                         URET is deployed and operational at all 20 en
special-use airspace and                                                                               route centers. The program was completed
introduces a conflict probe                                                                            within its cost and schedule baseline. URET is
capability and electronic flight                                                                       anticipated to be incorporated into the ERAM
data processing.                                                                                       system in December 2010 as outlined in FAA
                                                                                                       planning documents.
Contractor: Lockheed-
Martin

Responsible Service Unit:
En Route & Oceanic
Services


Exhibit A. Status of FAA’s Major Acquisitions (as of September 2007)                                                                      36
Program Name, Description,      Original         Current          Original           Current            Status and Key Issues Affecting
 Purpose, and Contractor      Program Cost     Program Cost      Deployment         Deployment                  Implementation
          Name                  Estimate         Estimate         Schedule           Schedule

Wide Area Augmentation        $892.4 million   $3.3 billion     Start: 1998       Start: 2005    WAAS has a long history of cost growth and
System (WAAS):                                 (Includes sunk   Finish: 2001      Finish: 2013   schedule slips. FAA last re-baselined WAAS
Provides the augmentation                      costs)                                            in May 2004, increasing F&E costs from
needed to make the Global                                                                        $2.9 billion to $3.3 billion. The first segment
Positioning System (GPS)                                                                         of the program provides precision approach
fully usable for en route,                                                                       capability and is baselined for completion by
terminal, and non-precision                                                                      2008. The second segment, which provides
approaches.                                                                                      precision landing capability, is not currently
                                                                                                 baselined but is scheduled for completion by
Contractor: Raytheon                                              Airspace users must            2013.
                                                                  equip to obtain benefits.
Responsible Service Unit:                                                                        Risks to implementation include delays in
Technical Operations                                                                             completing the integration of two additional
                                                                                                 satellites and the rate of equipage of aircraft to
                                                                                                 use the system. FAA is currently developing
                                                                                                 hundreds of new WAAS approach procedures
                                                                                                 for airports each year, in part, to provide
                                                                                                 incentive for aircraft owners to equip and
                                                                                                 utilize the new instrument approach
                                                                                                 capabilities.




Exhibit A. Status of FAA’s Major Acquisitions (as of September 2007)                                                                37
                                                                                                       38




EXHIBIT B. COST AND SCHEDULE VARIANCES FOR EXISTING
PROGRAMS
                  Estimated Program                           Implementation
                  Costs (in Millions)         Percent            Schedule
                                               Cost                                       Schedule
  Program                                     Growth                                       Delay
                Original       Current                     Original       Current
  WAAS           $892.4        $3,339.6        274%       1998-2001      2003-2013        12 years
  STARS *        $940.2        $2,719.2        189%       1998-2005      2002-TBD         2+ years
  FTI            $205.5         $318.8          55%       2002-2007      2002-2008          1 year
  LAAS           $530.1         $719.5          36%       2002-TBD       TBD-TBD          Deferred
  ASDE-X         $424.3         $549.8          30%       2003-2007      2003-2011         4 years
  ITWS           $276.1         $286.1          4%        2002-2003      2003-2009         6 years
  ATCBI-6        $281.8         $282.9          N/A       2000-2004      2002-2009        5 years
                                                                                        Merged with
  CDM             $75.9          $56.4          N/A       2002-2005      2002-TBD          ATM
  SWIM            $96.6          $96.6          N/A       2009-2010      2009-2010           N/A
  TMA            $135.5         $135.5          N/A       2003-2006      2004-2008         2 years
  TAMR *         $139.5         $139.5          N/A       2007-2008      2007-2008           N/A
  URET           $285.3         $284.1          N/A       2003-2006      2003-2006           N/A
  ATM             $454.3        $454.3          N/A       2007-2011      2007-2011           N/A
  ATOP           $548.2         $548.2          N/A       2004-2006      2004-2006           N/A
  CPDLC          $166.7         $118.0          N/A       2003-2005          N/A          Cancelled
  NEXCOM         $406.0         $324.7          N/A       2002-2008      2004-2013         5 years
  ASR-11         $743.3         $696.5          N/A       2000-2005      2003-2009         4 years
  ADS-B         $1,656.5       $1,656.5         N/A       2007-2013      2007-2013           N/A
  ERAM          $2,154.6       $2,141.9         N/A       2009-2010      2009-2010          N/A
                                                                                        1 year to 12
  Total         $10,412.8    $14.868.1**                                                   years
 Source: Varies, project-specific acquisition program baselines or FAA’s Capital Investment Plan
 N/A = Not applicable
 TBD = To be determined
  * For presentation purposes, STARS and TAMR are treated separately; however, these efforts are
    separate phases of the same program.
** Totals involve the current FAA-approved baseline cost estimate for the program and do not include
    non-baselined portion of the program or, in some cases, technical refresh cost estimates.




Exhibit B. Cost and Schedule Variances for Existing Programs
                                                                                39




EXHIBIT C. OBJECTIVES, SCOPE, AND METHODOLOGY
At the request of the Chairman and Ranking Member of the House Committee on
Transportation and Infrastructure, we updated our May 2005 status report on
FAA’s major acquisitions and examined how projects are affected by plans for the
Next Generation Air Transportation System (NextGen). Our objectives were to
examine (1) overall trends affecting FAA’s Facilities and Equipment (F&E) or
capital account, (2) recent changes in cost and schedule baselines of FAA’s major
acquisition programs, and (3) the effect of NextGen plans on existing projects.

We conducted this performance audit of 18 major FAA acquisitions from July
2006 to February 2008. These specific programs, valued at a total of $17.5 billion,
were identified in the Agency’s FY 2008-2012 National Airspace System Capital
Investment Plan and subsequent updates, the latest of which was issued on
September 2007. We selected the 18 programs for review based on their F&E cost
estimate value—at $150 million or greater—or their significance to NextGen. We
have included most of these programs in prior reports. We performed this review
in accordance with Government Auditing Standards as prescribed by the
Comptroller General of the United States and included such tests as we considered
necessary to provide reasonable assurance of detecting abuse or illegal acts.

To identify trends affecting FAA’s capital account, we reviewed past and current
investment plans, budget submissions, and spending plans. We also examined
various budget and planning documents that reflect FAA’s capital investments
with respect to support contracts, procurement of air traffic control systems, and
existing buildings and facilities. We also reviewed FAA’s planned investment
portfolio for NextGen initiatives for the next 5 years, including plans for
demonstration projects. In addition, we reviewed documents that projected FAA’s
needs for addressing facility maintenance and upgrading power distribution
systems.

To address recent changes in cost and schedule baselines of FAA’s major
acquisitions, we updated the data from our 2005 report. We examined project
status reports, OMB Form 300 exhibits, and decisions made by FAA’s Joint
Resources Council. We also updated status matrices for individual programs (see
exhibit A). Upon completion, we forwarded the information to FAA for review
and incorporated its comments where necessary. We decided not to track several
projects from our last report because they were either essentially complete or
reduced in scope. Moreover, we found it was difficult to make similar
comparisons between original and current programs because FAA has segmented
or deferred decisions that significantly modified programs with respect to cost,




Exhibit C. Objectives, Scope, and Methodology
                                                                                40


schedule, and expected benefits. This makes it very difficult for decision makers
to compare the current state of the programs with past assessments.

In examining the cost and schedule performance of FAA’s major acquisitions, we
also reviewed the reasonableness of FAA’s metrics for measuring programs.
These metrics are reported to the Congress and general public in FAA’s Flight
Plan and performance and accountability reports. To do so, we reviewed how
metrics were established, reviewed, and reported since their inception. We also
reviewed FAA’s Flight Plan and Acquisition Management System policy and
obtained data on the specific acquisition programs that FAA relied on to assess
performance from 2003 through 2006. We discussed criteria used to select
acquisitions and the strengths and weaknesses of acquisition metrics with FAA
officials responsible for managing and reporting on them.

To determine how NextGen plans affect existing programs, we interviewed
officials from FAA’s Joint Planning and Development Office, which is
responsible for developing a plan for NextGen. We also obtained plans and
independent assessments for key NextGen documents, including the NextGen
concept of operations, integrated work plan, and Enterprise Architecture (technical
roadmap or blueprint). To gain an understanding of how NextGen capabilities
will be introduced and the potential impact on existing projects, we reviewed
FAA’s Operational Evolution Partnership, which is intended to help manage
NextGen efforts. In addition, we discussed the transition to NextGen and key cost
drivers with FAA officials responsible for many key enabling technologies,
including ERAM, data communications, and ADS-B.




Exhibit C. Objectives, Scope, and Methodology
                                                                      41




EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT

THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



  Name                            Title

  Matthew E. Hampton              Deputy Assistant Inspector General
                                  for Aviation and Special Program Audits

  Sean L. Woods                   Project Manager

  Arnett Sanders                  Senior Auditor

  Raymond H. Denmark              Senior Analyst

  Joseph J. Hance                 Senior Analyst

  Kiesha M. Butler                Auditor

  Kevan A. Moniri                 Auditor

  Andrea J. Nossaman              Writer-Editor




Exhibit D. Major Contributors to This Report
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added here
to accommodate assistive technology.
Air Traffic Control Modernization: The Federal Aviation Administration Faces
 Challenges in Managing Ongoing Projects, Sustaining Existing Facilities, and
                        Introducing New Capabilities

                       Section 508 Compliant Presentation

Figure 1. The Federal Aviation Administration’s Capital Account Percentages,
Fiscal Year 2003 to Fiscal Year 2007

        Capital Account Item          Percentage
 Air Traffic Control Modernization 52 percent
 Facilities                          15 percent
 Personnel and Related Expenses      16 percent
 Mission Support                     17 percent
Source: Federal Aviation Administration

Figure 2. Agency Facilities and Equipment Enacted Funding, Fiscal Year 2003
to Fiscal Year 2007

   Fiscal Year       Funding Level
       2003         $2,959,380,000
       2004         $2,892,790,000
       2005         $2,524,820,000
       2006         $2,555,200,000
       2007         $2,575,580,000
Source: Federal Aviation Administration

Figure 3. Agency Facilities and Equipment, Operations, and Airport
Improvement Actual Funding, Fiscal Year 2003 to Fiscal Year 2007

Figure 3, Item 1: Facilities and Equipment Account

   • In fiscal year 2003, this account’s actual funding level was $2,942,000,000.

   • In fiscal year 2004, this account’s actual funding level was $2,863,000,000.

   • In fiscal year 2005, this account’s actual funding level was $2,525,000,000.

   • In fiscal year 2006, this account’s actual funding level was $2,555,000,000.

   • In fiscal year 2007, this account’s actual funding level was $2,518,000,000.
Figure 3, Item 2: Operations Account

   • In fiscal year 2003, this account’s actual funding level was $7,039,000,000.

   • In fiscal year 2004, this account’s actual funding level was $7,479,000,000.

   • In fiscal year 2005, this account’s actual funding level was $7,707,000,000.

   • In fiscal year 2006, this account’s actual funding level was $8,104,000,000.

   • In fiscal year 2007, this account’s actual funding level was $8,374,000,000.


Figure 3, Item 3: Airport Improvement Account

   • In fiscal year 2003, this account’s actual funding level was $3,378,000,000.

   • In fiscal year 2004, this account’s actual funding level was $3,649,000,000.

   • In fiscal year 2005, this account’s actual funding level was $3,702,000,000.

   • In fiscal year 2006, this account’s actual funding level was $3,071,000,000.

   • In fiscal year 2007, this account’s actual funding level was $3,671,000,000.

   Source: Federal Aviation Administration

Figure 4. Breakout of the Federal Aviation Administration’s Capital Account,
Fiscal Year 2003 to Fiscal Year 2007

        Capital Account Item          Percentage
 Air Traffic Control Modernization 52 percent
 Facilities                          15 percent
 Personnel and Related Expenses      16 percent
 Mission Support                     17 percent
Source: Federal Aviation Administration
Figure 5. Breakout of Air Traffic Control Modernization Within the Federal
Aviation Administration’s Capital Budget, Fiscal Year 2003 to Fiscal Year 2007

           Account Item               Percentage
 Automation                          51 percent
 Communications                      12 percent
 Navigation and Landing              16 percent
 Surveillance                        17 percent
 Weather                             4 percent
Source: Federal Aviation Administration

Figure 6. The Federal Aviation Administration’s Capital Funding Projections
for Fiscal Year 2008 to Fiscal Year 2012

(Note: NextGen funding includes ADS-B, SWIM, and future projects supporting
NextGen. Total NextGen funding for fiscal year 2008 to fiscal year 2012 from the
capital account is $4.3 billion. Remaining Facilities and Equipment includes funding
for existing projects, facilities, and support service contracts.)

   • For fiscal year 2008, the NextGen funding projection is $174,400,000, and the
     remaining funds projected for Facilities and Equipment is $2,287,200,000.
     Total capital funding projection for fiscal year 2008: $2,461,600,000.

   • For fiscal year 2009, the NextGen funding projection is $652,800,000, and the
     remaining funds projected for Facilities and Equipment is $2,306,000,000.
     Total capital funding projection for fiscal year 2009: $2,958,800,000.

   • For fiscal year 2010, the NextGen funding projection is $956,500,000, and the
     remaining funds projected for Facilities and Equipment is $2,158,200,000.
     Total capital funding projection for fiscal year 2010: $3,114,700,000.

   • For fiscal year 2011, the NextGen funding projection is $1,256,400,000, and
     the remaining funds projected for Facilities and Equipment is $2,096,600,000.
     Total capital funding projection for fiscal year 2011: $3,353,000,000.

   • For fiscal year 2012, the NextGen funding projection is $1,294,600,000, and
     the remaining funds projected for Facilities and Equipment is $2,211,700,000.
     Total capital funding projection for fiscal year 2012: $3,506,300,000.

   Source: Federal Aviation Administration
Table 1. Average Age of Federal Aviation Administration Facilities

As of fiscal year 2007,

        • The average age of air traffic control towers is 29 years.
        • The average age of terminal radar approach control facilities is 26 years.
        • The average age of en route control centers is 43 years.

Source: Federal Aviation Administration

Table 4. Federal Aviation Administration Schedule Metrics Used in Fiscal Year
2006

Table 4 shows metrics used for measuring progress with acquisitions in FY 2006.

     Program                      Metric                Planned Date       Actual Date
Airport Surface        Progress measured by:            Date planned for   Metric actually
Detection Equipment,   delivery of two systems          completion:        completed in
Model X (ASDE-X)                                        February 2006      February 2006
Standard Terminal      Progress measured by:            Date planned for   Metric actually
Automation             delivery to one site             completion:        completed in
Replacement System                                      February 2006      January 2006
(STARS)
Air Traffic            Progress measured by:            Date planned for   Metric actually
Management (ATM)       Completion of detailed design    completion:        completed in
                       review                           August 2006        March 2006
Precision Runway       Progress measured by:            Date planned for   Metric actually
Monitor                Completion of factory            completion:        completed in
                       acceptance testing for Atlanta   April 2006         April 2006
Wide Area              Progress measured by:            Date planned for   Metric actually
Augmentation System    Completion of initial            completion:        completed in
(WAAS)                 installation of two reference    September 2006     May 2006
                       stations
Source: the Federal Aviation Administration’s Air Traffic Organization-Finance
Capital Expenditures Program Office
Exhibit A. Status of Federal Aviation Administration (FAA) Major Acquisitions (as of September 2007)

Advanced Technologies and            Original Program   Current Program   Original            Current            ATOP is now operational at Oakland, New York,
Oceanic Procedures (ATOP):           Cost Estimate:     Cost Estimate:    Deployment          Deployment         and Anchorage Air Route Traffic Control Centers
Modernizes FAA facilities that       $548.2 million     $548.2 million    Schedule: Start:    Schedule: Start:   that manage oceanic traffic. We note that ATOP is
are responsible for managing                                              2004                2004               expected to help demonstrate NextGen automation
large segments of airspace over                                           Finish: 2006        Finish: 2006       capabilities.
the Atlantic and Pacific Oceans.
FAA plans call for an integrated                                                                                 Because FAA severely underestimated critical work
system for flight data processing,                                                                               areas in the original contract, it is currently planning
detecting conflicts between                                                                                      to increase the contract cost by $90 million. This
aircraft, data link, and                                                                                         would increase the contract value from $306 million
surveillance capabilities.                                                                                       to $396 million—a 29 percent increase. FAA
                                                                                                                 officials have stated that the cost increase can be
Contractor: Lockheed/Martin                                                                                      accommodated within the current baseline.

Responsible Service Unit: En                                                                                     FAA controllers have raised legitimate concerns
Route & Oceanic Services                                                                                         about recurring failures (loss of data-link
                                                                                                                 communication with aircraft and aircraft position
                                                                                                                 jumps) with ATOP. These problems represent
                                                                                                                 potentially hazardous safety conditions and directly
                                                                                                                 limit promised capacity and productivity benefits,
                                                                                                                 such as reduced separation. Over the past year,
                                                                                                                 FAA has addressed problems with ATOP while
                                                                                                                 deploying new capabilities; it will continue to do so
                                                                                                                 going forward.

                                                                                                                 ATOP is a key NextGen initiative for
                                                                                                                 demonstrating new automation capabilities.


Air Traffic Control Beacon           Original Program   Current Program   Original            Current            FAA has installed 112 out of 130 operational
Interrogator-6 (ATCBI-6):            Cost Estimate:     Cost Estimate:    Deployment          Deployment         ATCBI-6 systems and 6 out of 7 support systems.
A ground-based system that           $281.8 million     $282.9 million    date: Start: 2000   Schedule Start:    Of the operational systems, 88 are commissioned.
interrogates transponders,                                                Finish: 2004        2002               However, the program is requesting, in an
receives and processes replies                                                                Finish: 2009       upcoming Joint Resource Council review, to extend
from transponders, determines the                                                                                the deployment schedule to May 2010.
range and direction to/from
aircraft, and forwards the                                                                                         A number of factors have contributed to the need
information to appropriate air                                                                                     for rebaselining, including prior reductions in
traffic control automation                                                                                         funding and an increased number of systems being
systems. Replies from aircraft                                                                                     deployed due to agency cost share agreements,
provide transponder identification                                                                                 congressional earmarks, and other government
and altitude data, which are                                                                                       programs. However, due to implementation
displayed on the controller’s                                                                                      efficiencies, the new cost baseline will be reduced
screen.                                                                                                            to $251.7 million.

Contractor: Raytheon

Responsible Service Unit:
En Route & Oceanic Services


Air Traffic Management                Original Program   Current Program   Original           Current              ATM is an important effort to address capacity in
(ATM):                                Cost Estimate:     Cost Estimate:    Deployment         Deployment           both the short and long term. It is an important tool
Consists of: Traffic Flow             $454.3 million     $454.3 million    Schedule: Start:   Schedule: Start:     in reducing the impacts of bad weather throughout
Management - Modernization and                                             2007               2007                 the National Airspace System.
Collaborative Air Traffic                                                  Finish: 2011       Finish: 2011
Management Technologies                                                    (Up to Work        (Up to Work          Although the ATM effort has not experienced cost
(CATMT). TFM-M modernizes                                                  Package #1.        Package #1.          increases or schedule delays, we are concerned
the infrastructure that serves as                                          Additional         Additional           about risks and what will ultimately be delivered.
the automation backbone for the                                            segments are to    segments are to be   Our concerns are based on the fact the FAA and the
nationwide traffic management                                              be determined.)    determined.)         contractor significantly underestimated the size and
units that assist in the strategic                                                                                 complexity of TFM-M software development.
planning and management of air                                                                                     FAA has modified the contract and adjusted the
traffic. CATMT (Work Package                                                                                       scope of the work. The current risks for ATM focus
#1) provides new decision support                                                                                  on developing complex software and integrating the
tools to deliver additional user                                                                                   ATM with other NAS systems.
benefits and increase the effective
capacity of the NAS.                                                                                               ATM is a key platform for NextGen
                                                                                                                   initiatives. ATM efforts will have to be
Contractor:                                                                                                        integrated with automation and communication
Computer Sciences Corporation                                                                                      programs.
(TFM-M)
Volpe NTSC, and various
others (CATMT)
Responsible Service Unit:
Systems Operations


Airport Surface Detection             Original Program   Current Program     Original           Current            ASDE-X is an important technology to prevent
Equipment-X (ASDE-X):                 Cost Estimate:     Cost Estimate:      Deployment         Deployment         accidents on airport runways and taxiways. FAA
ASDE-X provides surveillance          $424.3 million     $549.8 million      Schedule: Start:   Schedule: Start:   last re-baselined ASDE-X in September 2005,
equipment and conflict alerting                          (Includes           2003 Finish:       2003               increasing costs from $505.2 million to $549.8
safety logic to prevent runway                           $77 million in      2007               Finish: 2011       million and extended the deployment completion
incursions at a large number of                          technical refresh                                         date from 2007 to 2011.
airports. Implementation of these                        costs.)
systems will improve controller                                                                                    ASDE-X was initially envisioned to provide a low-
situational awareness of the                                                                                       cost alternative system for small- to medium-sized
airport movement area.                                                                                             airports similar to FAA’s ASDE-3 radar system, but
                                                                                                                   has evolved into a different program. FAA made a
Contractor: Sensis Corp.                                                                                           significant change to the program in September
                                                                                                                   2005 and not only intends to upgrade ASDE-3
Responsible Service Unit:                                                                                          systems with ASDE-X capabilities at 25 large
Terminal Services                                                                                                  airports but also will install the system at 10 other
                                                                                                                   airports that currently lack any surface surveillance
                                                                                                                   technology.

                                                                                                                   We remain concerned about the possibility of
                                                                                                                   further increases and schedule slips, and when
                                                                                                                   operational performance issues with key safety
                                                                                                                   features will be resolved.


Airport Surveillance Radar            Original Program   Current Program     Original           Current            The ASR-11 program has undergone significant
(ASR-11):                             Cost Estimate:     Cost Estimate:      Deployment         Deployment         changes since our last report. In 2005, FAA re-
                                      $743.3 million     $696.5 million      Schedule: Start:   Schedule: Start:   baselined the effort to address cost and schedule
Replaces aging ASR-7 and ASR-                                                2000               2003               issues.
8 analog radars at small terminal                                            Finish: 2005       Finish: 2009
facilities with digital radar. ASR-                                                                                FAA now plans to deploy only 66 of the 112
11 can be used by Common                                                                                           originally planned systems. This accounts for the
ARTS and STARS. This is a                                                                                          slight reduction in the costs associated with the
joint effort with the Department                                                                                   ASR-11 program. FAA also extended the
of Defense.                                                                                                        deployment schedule by 4 years.
Contractor: Raytheon                                                                                             Surveillance architecture consists of the following
                                                                                                                 basic elements: radar systems, beacon systems, and
Responsible Service Unit:                                                                                        Automatic Dependent Surveillance – Broadcast
Terminal Services                                                                                                (ADS-B). In September 2006, FAA decided to
                                                                                                                 continue to limit the ASR-11 baseline to 66 systems
                                                                                                                 and wait until the ADS-B investment decision
                                                                                                                 before re-evaluating the business case for replacing
                                                                                                                 the remaining legacy radars. In February 2007, the
                                                                                                                 ADS-B program office proposed to retain primary
                                                                                                                 radars as part of its backup strategy, therefore the
                                                                                                                 ASR-11 program decided to go forward with its re-
                                                                                                                 evaluation. No baseline changes were required for
                                                                                                                 ASR-11 based upon the ADS-B backup strategies.

                                                                                                                 Any delays in implementing ADS-B will force FAA
                                                                                                                 to rethink its investments in ground-based radar
                                                                                                                 technology.


Automatic Dependent                 Original Program   Current Program   Original           Current              ADS-B is a cornerstone technology for NextGen
Surveillance-Broadcast (ADS-        Cost Estimate:     Cost Estimate:    Deployment         Deployment           and has considerable potential for enhancing safety
B) NAS-Wide Implementation:         $1.66 billion      $1.66 billion     Schedule: Start:   Schedule: Start:     and boosting capacity. In June 2006, FAA
ADS-B is a technology that relies   (Segments 1 and    (Segments 1 and   2007               2007                 approved the first 2 years of ADS-B which involves
on GPS to broadcast the positions   2)                 2)                Finish: 2013       Finish: 2013         development, validation of services, and limited
of properly equipped aircraft and                                        (Additional        (Additional          deployment.
surface vehicles. Formerly                                               segments are to    segments are to be
funded under the Safe Flight 21                                          be determined.)    determined.)         FAA awarded a $1.8 billion service contract for
Initiative, ADS-B is expected to                                                                                 ADS-B in August 2007 to build the ground
provide air-to-air and air-to-                                                                                   infrastructure. With this type of contract, the
ground surveillance capability                                                                                   Government will not own the ground infrastructure
throughout the NAS.                                                                                              but will pay for ADS-B services.

Contractor(s):                                                                                                   Initially, FAA is focusing on “ADS-B OUT” as a
ITT Corp.                                                                                                        replacement for or adjunct to current radar.
                                                                                                                 However, most benefits are expected with “ADS-B
Responsible Service Unit: En                                                                                     IN,” which will display traffic information in the
Route & Oceanic Services                                                                                         cockpit. This will facilitate self-separation.
                                                                                                            Realizing the full range of ADS-B benefits will
                                                                                                            depend on mitigating risk in a number of areas,
                                                                                                            including airspace users equipping with new
                                                                                                            avionics. FAA intends to rely on a rulemaking
                                                                                                            initiative to spur aircraft equipage. Other risks
                                                                                                            involve addressing broadcast frequency congestion
                                                                                                            concerns, implementing procedures for separating
                                                                                                            aircraft, and assessing security vulnerabilities in
                                                                                                            managing air traffic.

                                                                                                            ADS-B is a key NextGen initiative.
                                                                                                            Airspace users must equip to obtain benefits
                                                                                                            and FAA intends to rely on rulemaking
                                                                                                            initiative to spur equipage.
Collaborative Decision Making    Original Program   Current Program   Original           Current            The CDM effort was part of the Free Flight Phase I
(CDM):                           Cost Estimate:     Cost Estimate:    Deployment         Deployment         and II initiatives. It introduced information
Part of Air Traffic Management   $75.9 million      $56.4 million     Schedule: Start:   Schedule: Start:   exchange systems between the FAA and airline
(ATM), CDM allows information                                         2002               2002               operations centers.
exchange and consultation with                                        Finish: 2005       Finish: see Air
airline operation centers to                                                             Traffic            In August 2005, the CDM program became part of
determine the most acceptable                                                            Management         the Collaborative Air Traffic Management
strategies to reduce delays.                                                             (ATM)              Technologies within the Air Traffic Management
Contractors: Volpe NTSC,                                                                                    line of effort. CATMT will encompass the same
Metron Aviation, Northrup-                                                                                  type of software enhancements that were formerly
Grumman                                                                                                     provided by CDM.
Responsible Service Unit:
System Operations
Controller-Pilot Data Link           Original Program    Current Program   Original           Current            FAA has long considered an effective controller-
Communications (CPDLC):              Cost Estimate:      Cost Estimate:    Deployment         Deployment         pilot data link essential for enhancing capacity.
Designed to provide a digital data   $166.7 million      $118 million      Schedule: Start:   Schedule: Start:   FAA cancelled its most recent CPDLC effort (a
communications capability for        (Builds 1 and 1A)   (Amount           2003               N/A                limited deployment) in April 2003 because of
ATC operations that will be an                           expended)         Finish: 2005       Finish: N/A        concerns about airspace user equipage and
enhancement to existing                                                                                          increased costs. We documented FAA’s reasons in
air/ground voice communications.                                                                                 our September 2004 report.

Responsible Service Unit: En                                                                                     Data link communications are a key element in
Route & Oceanic Services                                                                                         NextGen to enhance capacity and boost
                                                                                                                 productivity. FAA is planning to restart this effort
                                                                                                                 as part of a NextGen initiative and has scheduled an
                                                                                                                 initial investment decision for FY 2008.

                                                                                                                 Data Link Communications are a key
                                                                                                                 NextGen initiative for reducing voice
                                                                                                                 communications and enhancing controller
                                                                                                                 productivity.

En Route Automation                  Original Program    Current Program   Original           Current            ERAM is currently on budget and on schedule and
Modernization (ERAM):                Cost Estimate:      Cost Estimate:    Deployment         Deployment         is meeting performance milestones. The next major
Replaces the Host computer           $2.154 billion      $2.142 billion    Schedule: Start:   Schedule: Start:   milestone is Government Acceptance, which is
hardware and software, including                                           2009               2009               planned for October 2007, 6 months earlier than
the Host backup system, and                                                Finish: 2010       Finish: 2010       planned.
associated support infrastructure,
at 20 En Route Centers.                                                                                          ERAM is currently managing several significant
                                                                                                                 risks dealing with system complexity and software
Contractors: Lockheed/Martin                                                                                     development, training and transition issues, and
(prime), and Raytheon                                                                                            operational acceptance.
(subcontractor)
                                                                                                                 The ERAM program will provide a modern and
Responsible Service Unit: En                                                                                     slightly more capable replacement for the existing
Route & Oceanic Services                                                                                         Host computer system. An expanded ERAM is
                                                                                                                 being envisioned as the primary automation system
                                                                                                                 for NextGen to provide flight data, trajectory-based
                                                                                                                 services for high and low altitude air traffic. The
                                                                                                                 follow-on ERAM program will include additional
                                                                                                                 software releases and hardware upgrades that will
                                                                                                                provide the new capabilities envisioned for
                                                                                                                NextGen. These upgrades are currently undefined
                                                                                                                and likely will require billions of dollars to develop
                                                                                                                and field.

                                                                                                                Cost increases or schedule slips to the existing
                                                                                                                ERAM program would have a cascading impact on
                                                                                                                other capital programs and could directly affect the
                                                                                                                pace of the overall transition to NextGen.

                                                                                                                ERAM is a key platform for NextGen
                                                                                                                Automation efforts that will provide for greater
                                                                                                                controller productivity.

FAA Telecommunications               Original Program   Current Program   Original           Current            FTI is a key telecommunications program that FAA
Infrastructure (FTI):                Cost Estimate:     Cost Estimate:    Deployment         Deployment         expects to significantly reduce Agency operating
FTI is designed to phase out older   $205.5 million     $318.8 million    Schedule: Start:   Schedule: Start:   costs.
telecommunications systems and                                            2002               2002
replace them with one provider                                            Finish: 2007       Finish: 2008       FAA re-baselined FTI in August 2006, extending
responsible for operating and                                                                                   the transition end date by 12 months to December
maintaining FAA                                                                                                 2008. FAA extended the schedule to address a
telecommunications                                                                                              number of risks associated with completing the FTI
infrastructure.                                                                                                 transition by December 2007.

Contractor:                                                                                                     FAA continues to face challenges in implementing
Harris Corporation                                                                                              FTI. FAA has a backlog of more than 1,000 FTI
                                                                                                                services, but considers the remaining work
Responsible Service Unit:                                                                                       manageable. The program’s estimated benefit
Technical Operations                                                                                            associated with savings is eroding. By the end of
                                                                                                                FY 2006, we estimated that the benefit, in terms of
                                                                                                                estimated cost savings, had dropped from the
                                                                                                                original estimate of $820 million to $434 million.
                                                                                                                Finally, FAA must ensure FTI diversity
                                                                                                                requirements are met to reduce the risks of
                                                                                                                unscheduled system outages.
Integrated Terminal Weather           Original Program   Current Program      Original           Current            FAA has installed 17 of 22 operational ITWS
System (ITWS): Acquires and           Cost Estimate:     Cost Estimate:       Deployment         Deployment         systems and four support systems. Of the
integrates weather data from          $276.1 million     $286.1 million       Schedule: Start:   Schedule: Start:   operational systems, 15 are commissioned. In May
multiple sensors, and provides                                                2002               2003               2004, FAA decided to defer 12 systems to allow the
traffic management units with a                                               Finish: 2003       Finish: 2009       incorporation of the Terminal Convective Weather
graphic display of weather                                                                                          Forecast (TCWF) while remaining within funding
information that needs no                                                                                           levels.
meteorological interpretation.
This includes (1) a display of                                                                                      FAA completed the development of TCWF
terminal winds aloft and (2) a 20-                                                                                  enhancement in April 2006 and has retrofitted 9 of
minute prediction of convective                                                                                     11 ITWS that were installed prior to TCWF
weather.                                                                                                            development.
Contractor: Raytheon
                                                                                                                    In an upcoming Joint Resource Council review,
Responsible Service Unit:                                                                                           FAA plans to make a deployment decision
Terminal Services                                                                                                   regarding the 12 systems, which may extend the
                                                                                                                    schedule baseline and increase operation and
                                                                                                                    maintenance costs; however, cost and schedule
                                                                                                                    baselines are still being validated.

                                                                                                                    ITWS is an enabling technology for NextGen.

Local Area Augmentation               Original Program   Current Program      Original           Current            FAA has deferred making decisions about how to
System (LAAS):                        Cost Estimate:     Cost Estimate:       Deployment         Deployment         move forward with LAAS until the 2008/2009
LAAS is a precision approach and      $530.1 million     $719.5 million       Schedule: Start:   Schedule: Start:   timeframe and the effort has been in a research and
landing system that is expected to                       (Includes            2002               N/A                development mode since 2004. Consequently, firm
boost airport arrival rates under                        $111.1 million for   Finish: to be      Finish: N/A        cost and schedule baselines do not exist.
all weather conditions. It provides                      technical refresh)   determined
the augmentation needed at 160                                                                                      FAA intends to continue the development activities
airports to make GPS fully usable                                                                                   to complete a design capable of achieving expected
for Categories I, II, and III                                                                                       performance parameters.
precision approaches at selected
airports.                                                                                                           FAA is planning a cooperative agreement with
                                                                                                                    Department of Defense to achieve Category III
Contractor: Honeywell                                                                                               performance with the Department of Defense
                                                                                                                    system, the Joint Precision Approach and Landing
Responsible Service Unit:                                                                                           System (JPALS). Also, FAA is cooperating with
Technical Operations                                                                                                Air Services Australia to develop the LAAS
                                                                                                                integrity design.

                                                                                                                Although decisions for LAAS have been postponed,
                                                                                                                we note that in its Capital Investment Plan, the FAA
                                                                                                                is allocating about $400 million for LAAS for FY
                                                                                                                2012 and beyond.
                                                                                                                Airspace users must equip to obtain benefits.

Next Generation VHF              Original Program   Current Program      Original           Current             NEXCOM was originally envisioned as program to
Air/Ground Communications        Cost Estimate:     Cost Estimate:       Deployment         Deployment          revamp voice and data communications in the
(NEXCOM):                        $406.0 million     $324.7 billion       Schedule: Start:   Schedule: Start:    National Airspace System. It is now essentially a
Replaces and modernizes the      (Segment 1 only)   (Segment 1a only.    2002 Finish:       2004 Finish:        radio replacement program.
aging and obsolete national                         The total estimate   2008               2013
airspace system (NAS) air-to-                       outlined in FAA      (Key site)         (Segment 1a only)   In March 2004, FAA deferred major elements of
ground analog radio                                 CIP for all                                                 NEXCOM. In December 2005, NEXCOM was re-
communications infrastructure                       segments is $1.26                                           baselined only for the purchase and installation of
and will address the impending                      billion.)                                                   multimode digital radios in the analog mode
shortage of communication                                                                                       (segment 1a) in en-route facilities. FAA has
frequency spectrum.                                                                                             requested funding to complete an investment
                                                                                                                analysis and initiate an acquisition to replace radios
Contractor: ITT                                                                                                 in terminal and flight service facilities.

Responsible Service Unit:                                                                                       According to FAA, efforts to modernize
Technical Operations                                                                                            communications by providing data communications
                                                                                                                capabilities will be funded through the new
                                                                                                                NextGen Data Communications program. FAA
                                                                                                                faces a myriad of complex decisions about
                                                                                                                requirements, technical approaches, and ways to
                                                                                                                transition new communication systems.
Standard Terminal Automation        Original Program   Current Program       Original           Current            The STARS program (now referred to as TAMR
Replacement System (STARS) -        Cost Estimate:     Cost Estimate:        Deployment         Deployment         Phase I) has a long history of cost increases and
Terminal Automation                 $940.2 million     $2.719 billion        Schedule: Start:   Schedule: Start:   schedule slips. It is no longer the program that
Modernization/ Replacement                             (Includes             1998               2002               FAA originally envisioned. In 2004, faced with
Program (TAMR) Phase I:                                $585 million for      Finish: 2005       Finish: to be      cost growth in excess of $2 billion for STARS,
Replaces controller and                                technical refresh.)                      determined         FAA rethought its terminal modernization strategy.
maintenance workstations with                                                                                      The Agency committed to deploying STARS at 50
color displays, processors, and                                                                                    sites (later reduced to 47) at a cost of $1.46 billion
computer software at terminal air                                                                                  as opposed to the original plan for 172 sites at a cost
traffic control facilities.                                                                                        of $940 million.

Contractor: Raytheon                                                                                               STARS is fully operational at 46 of the 47 sites.
                                                                                                                   Norfolk—the 46th site—achieved Initial Operational
Responsible Service Unit:                                                                                          Capability in June 2007. At the remaining site—
Terminal Services                                                                                                  Dayton—the hardware will be placed in storage
                                                                                                                   awaiting facility construction completion.

                                                                                                                   There is no current defined “end state” for terminal
                                                                                                                   modernization, and past problems with STARS
                                                                                                                   leaves FAA in a difficult position to begin
                                                                                                                   transitioning to NextGen capabilities. Future costs
                                                                                                                   will be shaped by (1) NextGen requirements, (2) the
                                                                                                                   extent of FAA’s terminal facilities consolidation,
                                                                                                                   and (3) the need to replace or sustain existing
                                                                                                                   (legacy) systems that have not yet been modernized.
System-Wide Information             Original Program   Current Program    Original            Current                SWIM is a key transformational program for the
Management (SWIM):                  Cost Estimate:     Cost Estimate:     Deployment          Deployment             development of NextGen. FAA decided to baseline
SWIM will provide a NAS-wide        $96.6 million      $96.6 million      Schedule: Start:    Schedule: Start:       the first 2 years of segment 1 of the program (FY
information web to connect FAA      (FAA CIP cost      (FAA CIP cost      2009                2009                   2009-FY 2010) to allow assessment of commercial
systems to each other and enable    estimate: $285.0   estimate: $285.0   Finish: 2010        Finish: 2010           off-the-shelf products to satisfy SWIM
interaction with members of the     million)           million)           (FAA baselined      (FAA baselined         requirements, design capabilities, and deploy
decision making community. To                                             the first 2 years   the first 2 years of   selected capabilities. Much work remains to
the extent practicable, SWIM will                                         of segment 1.       segment 1.             determine the requirements and interfaces with
leverage existing systems and                                             Additional          Additional             other FAA systems.
networks based on proven                                                  segments are to     segments are to be
technologies in the operational                                           be determined.)     determined.)           SWIM is a key NextGen initiative that will
and demonstration environment.                                                                                       provide the basis for net-centric
                                                                                                                     communications.
Contractor: To Be Determined

Responsible Service Unit:
Technical Operations
Terminal Automation                   Original Program     Current Program      Original           Current            FAA is also funding ongoing terminal
Modernization/Replacement             Cost Estimate:       Cost Estimate:       Deployment         Deployment         modernization through a follow-on effort called
Program (TAMR) – Phase II             $139.5 million       $139.5 million       Schedule: Start:   Schedule: Start:   TAMR Phase II. This effort has its own baseline
Modernizes the automation             (Includes            (Includes            2007               2007               and funding profile in the FAA’s Capital
systems that provide air traffic      $82.9 million for    $82.9 million for    Finish: 2008       Finish: 2008       Investment Plan.
controllers with the information      technical refresh)   technical refresh.
needed to safely and efficiently                           The current                                                In June 2005, FAA approved modernizing five
control air traffic in the terminal                        estimate for Phase                                         small sites with STARS and replacing aging
environment.                                               III, while not                                             displays at four large, complex sites (Chicago, IL;
                                                           approved, is $654                                          Denver, CO; St. Louis, MO; and Minneapolis, MN)
Contractor: Raytheon                                       million.)                                                  at a cost of $57 million. These sites are particularly
(primary), Lockheed Martin                                                                                            critical to the NAS. However, this leaves over 100
(subcontractor)                                                                                                       small sites that are still in need of modernization.

Responsible Service Unit:                                                                                             The most urgent concern facing terminal
Terminal Services                                                                                                     modernization is how quickly FAA can replace
                                                                                                                      aging displays at the four critical sites. FAA chose
                                                                                                                      not to compete this work based on a joint proposal
                                                                                                                      from two contractors and instead decided to modify
                                                                                                                      the current STARS contract to include the work.
                                                                                                                      Although this was expected to expedite replacement
                                                                                                                      of the aging displays, the time spent revising the
                                                                                                                      contract caused FAA to lose the time advantage
                                                                                                                      from forgoing competition. As a result, the aging
                                                                                                                      displays will not be replaced until 2008.
Traffic Management Advisor             Original Program   Current Program   Original           Current            TMA was developed and implemented as part of
(TMA):                                 Cost Estimate:     Cost Estimate:    Deployment         Deployment         the Free Flight Phase I and II initiatives. In May
TMA is an automated decision-          $135.5 million     $135.5 million    Schedule: Start:   Schedule: Start:   2005, FAA established a specific baseline for TMA.
support system that allows air                                              2003               2004
traffic controllers to sequence                                             Finish: 2006       Finish: 2008       TMA was deployed at six en route centers under
aircraft in a way that that reduces                                                                               Free Flight Phase I and at four additional en route
airspace congestion and optimizes                                                                                 centers under Free Flight Phase II.
airport arrival capacity.
                                                                                                                  In June 2005, the FAA Administrator directed the
Contractor: Computer Sciences                                                                                     delivery of TMA to seven en route centers and
Corporation                                                                                                       TMA is currently being deployed at these sites.
                                                                                                                  This was done within the framework of the existing
Responsible Service Unit: En                                                                                      budget and the only impact is an extended final
Route & Oceanic Services                                                                                          deployment schedule.

                                                                                                                  TMA is a contributing technology for
                                                                                                                  NextGen.

User Request Evaluation Tool           Original Program   Current Program   Original           Current            FAA developed and implemented URET as part of
(URET):                                Cost Estimate:     Cost Estimate:    Deployment         Deployment         the Free Flight Phase I and II initiatives. In May
URET is a decision support aid         $285.3 million     $284.1. million   Schedule: Start:   Schedule: Start:   2005, FAA established a specific baseline for
that automatically tells air traffic                                        2003               2003               URET.
controllers of potential conflicts                                          Finish: 2006       Finish: 2006
between aircraft and special-use                                                                                  URET is deployed and operational at all 20 en route
airspace and introduces a conflict                                                                                centers. The program was completed within its cost
probe capability and electronic                                                                                   and schedule baseline. URET is anticipated to be
flight data processing.                                                                                           incorporated into the ERAM system in December
                                                                                                                  2010 as outlined in FAA planning documents.
Contractor: Lockheed-Martin

Responsible Service Unit: En
Route & Oceanic Services
Wide Area Augmentation               Original Program   Current Program   Original           Current            WAAS has a long history of cost growth and
System (WAAS):                       Cost Estimate:     Cost Estimate:    Deployment         Deployment         schedule slips. FAA last re-baselined WAAS in
Provides the augmentation needed     $892.4 million     $3.3 billion      Schedule: Start:   Schedule: Start:   May 2004, increasing F&E costs from $2.9 billion
to make the Global Positioning                          (Includes sunk    1998               2005               to $3.3 billion. The first segment of the program
System (GPS) fully usable for en                        costs)            Finish: 2001       Finish: 2013       provides precision approach capability and is
route, terminal, and non-precision                                                                              baselined for completion by 2008. The second
approaches.                                                                                                     segment, which provides precision landing
                                                                                                                capability, is not currently baselined but is
Contractor: Raytheon                                                                                            scheduled for completion by 2013.

Responsible Service Unit:                                                                                       Risks to implementation include delays in
Technical Operations                                                                                            completing the integration of two additional
                                                                                                                satellites and the rate of equipage of aircraft to use
                                                                                                                the system. FAA is currently developing hundreds
                                                                                                                of new WAAS approach procedures for airports
                                                                                                                each year, in part, to provide incentive for aircraft
                                                                                                                owners to equip and utilize the new instrument
                                                                                                                approach capabilities.

                                                                                                                Airspace users must equip to obtain benefits.
     Exhibit B. Cost and Schedule Variances for Existing Programs

     Note 1: For presentation purposes, STARS and TAMR are treated separately; however,
     these efforts are separate phases of the same program.

     Note 2: Totals involve the current FAA-approved baseline cost estimate for the program and
     do not include non-baselined portion of the program or, in some cases, technical refresh cost
     estimates.

Wide Area                Original    Current          Percent Cost   Original        Current         Schedule
Augmentation System      Program     Program Cost     Growth:        Deployment      Deployment      delay: 12
(WAAS) program           Cost        Estimate:        274 percent    Schedule:       Schedule:       years
                         Estimate:   $3.3 billion                    Start: 1998     Start: 2005
                         $892.4                                      Finish: 2001    Finish: 2013
                         million
Standard Terminal        Original    Current          Percent Cost   Original        Current         Schedule
Automation Replacement   Program     Program Cost     Growth: 189    Deployment      Deployment      delay: over 2
System program           Cost        Estimate:        percent        Schedule:       Schedule:       years
(STARS)                  Estimate:   $2.719 billion                  Start: 1998     Start: 2002
                         $940.2                                      Finish: 2005    Finish: to be
                         million                                                     determined

FAA                      Original    Current          Percent Cost   Original        Current         Schedule
Telecommunications       Program     Program Cost     Growth: 55     Deployment      Deployment      delay: 1 year
Infrastructure program   Cost        Estimate:        percent        Schedule:       Schedule:
(FTI)                    Estimate:   $318.8 million                  Start: 2002     Start: 2002
                         $205.5                                      Finish: 2007    Finish: 2008
                         million

Local Area               Original    Current          Percent Cost   Original        Current         Schedule
Augmentation System      Program     Program Cost     Growth: 36     Deployment      Deployment      delay:
program (LAAS)           Cost        Estimate:        percent        Schedule:       Schedule:       Deferred
                         Estimate:   $719.5 million                  Start: 2002     Start: to be
                         $530.1      (Includes                       Finish: to be   determined
                         million     $111.1 million                  determined
                                     for technical                                   Finish: to be
                                     refresh)                                        determined

Airport Surface          Original    Current          Percent Cost   Original        Current         Schedule
Detection Equipment-     Program     Program Cost     Growth: 30     Deployment      Deployment      delay: 4 years
Model X program          Cost        Estimate:        percent        Schedule:       Schedule:
(ASDE-X)                 Estimate:   $549.8 million                  Start: 2003     Start: 2003
                         $424.3                                      Finish: 2007    Finish: 2011
                         million

Integrated Terminal      Original    Current          Percent Cost   Original        Current         Schedule
Weather System program   Program     Program Cost     Growth: 4      Deployment      Deployment      delay: 6 years
(ITWS)                   Cost        Estimate:        percent        Schedule:       Schedule:
                         Estimate:   $286.1 million                  Start: 2002     Start: 2003
                         $276.1                                      Finish: 2003    Finish: 2009
                         million

Air Traffic Control      Original    Current          Percent Cost   Original        Current         Schedule
Beacon Interrogator-6    Program     Program Cost     Growth: Not    Deployment      Deployment      delay: 5 years
program (ATCBI-6)         Cost        Estimate:        applicable     date: Start:   Schedule
                          Estimate:   $282.9 million                  2000           Start: 2002
                          $281.8                                      Finish: 2004   Finish: 2009
                          million

Collaborative Decision    Original    Current          Percent Cost   Original       Current         Schedule
Making program (CDM)      Program     Program Cost     Growth: Not    Deployment     Deployment      delay: Merged
                          Cost        Estimate:        applicable     Schedule:      Schedule:       with ATM
                          Estimate:   $56.4 million                   Start: 2002    Start: 2002
                          $75.9                                       Finish: 2005   Finish: to be
                          million                                                    determined

System-Wide               Original    Current          Percent Cost   Original       Current         Schedule
Information Management    Program     Program Cost     Growth: Not    Deployment     Deployment      delay: not
program (SWIM)            Cost        Estimate:        applicable     Schedule:      Schedule:       applicable
                          Estimate:   $96.6 million                   Start: 2009    Start: 2009
                          $96.6                                       Finish: 2010   Finish: 2010
                          million

Traffic Management        Original    Current          Percent Cost   Original       Current         Schedule
Advisor program (TMA)     Program     Program Cost     Growth: Not    Deployment     Deployment      delay: 2 years
                          Cost        Estimate:        applicable     Schedule:      Schedule:
                          Estimate:   $135.5 million                  Start: 2003    Start: 2004
                          $135.5                                      Finish: 2006   Finish: 2008
                          million


Terminal Automation       Original    Current          Percent Cost   Original       Current         Schedule
Modernization/Replacem    Program     Program Cost     Growth: Not    Deployment     Deployment      delay: not
ent Program (TAMR)        Cost        Estimate:        applicable     Schedule:      Schedule:       applicable
                          Estimate:   $139.5 million                  Start: 2003    Start: 2004
                          $139.5                                      Finish: 2006   Finish: 2008
                          million
User Request Evaluation   Original    Current          Percent Cost   Original       Current         Schedule
Tool program (URET)       Program     Program Cost     Growth: Not    Deployment     Deployment      delay: Not
                          Cost        Estimate:        applicable     Schedule:      Schedule:       applicable
                          Estimate:   $284.1.                         Start: 2003    Start: 2003
                          $285.3      million                         Finish: 2006   Finish: 2006
                          million

Air Traffic Management    Original    Current          Percent Cost   Original       Current         Schedule
program (ATM)             Program     Program Cost     Growth: Not    Deployment     Deployment      delay: Not
                          Cost        Estimate:        applicable     Schedule:      Schedule:       applicable
                          Estimate:   $454.3 million                  Start: 2007    Start: 2007
                          $454.3                                      Finish: 2011   Finish: 2011
                          million


Advanced Technologies     Original    Current          Percent Cost   Original       Current         Schedule
and Oceanic Procedures    Program     Program Cost     Growth: Not    Deployment     Deployment      delay: Not
program (ATOP)            Cost        Estimate:        applicable     Schedule:      Schedule:       applicable
                          Estimate:   $548.2 million                  Start: 2004    Start: 2004
                          $548.2                                      Finish: 2006   Finish: 2006
                          million
Controller-Pilot Data    Original    Current          Percent Cost   Original       Current        Schedule
Link Communications      Program     Program Cost     Growth: Not    Deployment     Deployment     delay:
program (CPDLC)          Cost        Estimate:        applicable     Schedule:      Schedule:      Cancelled
                         Estimate:   $118 million                    Start: 2003    Start: not
                         $166.7                                      Finish: 2005   applicable
                         million                                                    Finish: not
                                                                                    applicable


Next Generation VHF      Original    Current          Percent Cost   Original       Current        Schedule
Air/Ground               Program     Program Cost     Growth: Not    Deployment     Deployment     delay: 5 years
Communications           Cost        Estimate:        applicable     Schedule:      Schedule:
program                  Estimate:   $324.7 billion                  Start: 2002    Start: 2004
(NEXCOM)                 $406.0                                      Finish: 2008   Finish: 2013
                         million

Airport Surveillance     Original    Current          Percent Cost   Original       Current        Schedule
Radar program (ASR-11)   Program     Program Cost     Growth: Not    Deployment     Deployment     delay: 4 years
                         Cost        Estimate:        applicable     Schedule:      Schedule:
                         Estimate:   $696.5 million                  Start: 2000    Start: 2003
                         $743.3                                      Finish: 2005   Finish: 2009
                         million

Automatic Dependent      Original    Current          Percent Cost   Original       Current        Schedule
Surveillance-Broadcast   Program     Program Cost     Growth: Not    Deployment     Deployment     delay: Not
program (ADS-B)          Cost        Estimate:        applicable     Schedule:      Schedule:      applicable
                         Estimate:   $1.66 billion                   Start: 2007    Start: 2007
                         $1.66                                       Finish: 2013   Finish:
                         billion                                                    2013

En Route Automation      Original    Current          Percent Cost   Original       Current        Schedule
Modernization program    Program     Program Cost     Growth: Not    Deployment     Deployment     delay: Not
(ERAM)                   Cost        Estimate:        applicable     Schedule:      Schedule:      applicable
                         Estimate:   $2.142 billion                  Start: 2009    Start: 2009
                         $2.154                                      Finish: 2010   Finish: 2010
                         billion




      The total original estimated cost for these programs was $10,412,800,000.
      The total current estimated cost for these programs is $14,868,100,000.
      Schedule delays for these programs range from 1 year to 12 years.

     Source: Varies, project-specific acquisition program baselines or FAA’s Capital Investment
     Plan
